TABLE OF CONTENTS
APPENDIX A
Order of March 28, 2019

la

APPENDIX B
Per Curiam of March 16, 2018

75a

APPENDIX C
Per Curiam of April 10, 2020

79a

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF IOWA EASTERN
(WATERLOO) DIVISION
BILLY DUANE CARD FLESHNER,
No. 15-cv-2033CJW-KEM

Plaintiff,
vs

ORDER
MATTHEW TIEDT, KYLE
SHORES, DAN
SCHAEFER, and JAMES E.
DICKINSON,
Defendants.

TABLE OF CONTENTS
I.

FACTUAL BACKGROUND

1

II. PROCEDURAL HISTORY.

5

III.

6

IV.

APPLICABLE LAW
A.

Summary Judgment

6

B.

Section 1983 Claims

8

C.

Qualified Immunity

9

ANALYSIS
A.

11

Unreasonable Seizure — Traffic Stop

la

11

B.

C.

D.

1. Findings of Fact

11

2. Deputy Tiedt

13

14

a.

Window Tints

b.

Wiley’s Report of Plaintiffs Driving ..15
l.

Reliability of Wiley’s Report

16

ii.

Reasonable Suspicion Based on
Wiley’s Report...............................

17

2.

Deputy Shores

20

3.

Officers Dickinson and Schaefer

21

Unreasonable Seizure — Unlawful Arrest

22

1.

Findings of Fact

22

2.

Probable Cause

23

Unreasonable Search

25

1.

Findings of Fact

25

2.

Inventory Search

27

3.

Tiedt and Shores

28

4.

Schaefer and Dickinson

29
35

Excessive Force

2a

V.

1.

Findings of Fact

36

2.

Substantial Injury

41

3.

Qualified Immunity

41

a.

Violation of a Constitutional Right.... 42

b.

Clearly Established Rights

44

l.

Tiedt

46

ii.

Shores

50

iii. Schaefer

53

iv. Dickinson....

61

CONCLUSION

.63

3a

This matter is before the Court on the motion for
summary judgment filed by defendants Dan Schaefer and
James E. Dickinson (“state defendants”) (Doc. 74), and
motion for partial summary judgment filed by defendants
Matthew Tiedt and Kyle Shores (“county defendants”)
(Doc. 76). 1 The Court considers this matter fully
submitted and will consider both motions for summary
judgment together. For the following reasons, the state
defendants’ motion for summary judgment is granted, and
the county defendants’ motion for summary judgment is
granted on count two and granted in part and denied in
part on count three.
FACTUAL BACKGROUND
/.
The following facts are undisputed for purposes of
the instant motions, unless otherwise indicated. The
Court makes additional detailed fact findings as to each
of plaintiffs claims in the analysis section of this Order.
On December 24, 2014, at approximately 6-00 p.m., a
dispatcher forwarded to Bremer County Deputy Sheriff
Matthew Tiedt (“Tiedt”) a complaint of a Jeep driving
erratically. (Docs. 76*1, t l; 76* 2, at 8). Tiedt intercepted
the Jeep and began to follow it.

1 After the deadline to file resistances expired, plaintiff moved to
extend the time to resist defendants’ motions for summary judgment.
(Doc. 79). The Court provided plaintiff until November 21, 2018, to
file his resistances. (Doc. 80). On November 26, 2018, plaintiff filed a
combined resistance to defendants’ motions for summary judgment.
(Doc. 83). The state defendants replied to plaintiffs resistance. (Doc.
84). On December 17, 2018, plaintiff filed additional resistances to
defendants’ motions for summary judgment. (Docs. 85, 86). The
county defendants moved to strike plaintiffs additional resistance to
the county defendants’ motion for summary judgment. (Doc. 87). The
Court struck plaintiffs additional resistances for being untimely and
improper under the Local Rules. (Doc. 88)

4a

(Docs. 76*1, 2; 76-1, at 8). Tiedt believed that plaintiff,
the driver of the Jeep, was in violation of several traffic
statutes. (Doc. 76-1, at % 2). Tiedt activated the warning
lights on the top of his patrol car in an attempt to get
plaintiff to pull over. (Docs. 15, at If 15; 76-1, at t 3).
When Tiedt activated his emergency lights it activated
his patrol car’s dash camera, which continued to record
throughout the events relevant to this case. (Tiedt Video;
Doc. 76- 1, at 1 3). After Deputy Tiedt initiated his lights,
plaintiff continued driving for approximately two minutes
before pulling into a gas station parking lot. (Docs. 74-1,
at If 2; 76-1, at Iflf 3-4). Plaintiff asserts that he travelled
“just under a couple of miles” before stopping in the
parking lot (Doc. 35, at 14) which does not contradict
defendants’ assertion that plaintiff traveled for nearly
two miles. (Docs. 74-1, at ^ 4; 76-2, at 12). Plaintiff claims
he did not violate any traffic laws, and that Tiedt did not
have reasonable suspicion to initiate the traffic stop.
(Docs. 35, at l; 83, at Tf 18).
Once plaintiff stopped his Jeep, Tiedt approached the
Jeep on the passenger side and requested that plaintiff
roll down the window and produce identification. (Docs.
15, at If 19; 74-1, at If 4; 76*1, at Tf1f 6-7). Plaintiff refused
to roll the window down more than “a crack,” (Doc. 74*1,
at Tf 4), or more than approximately two inches. (Doc. 76*
1, at If 6). Defendants further contend that none of the
law enforcement personnel who ultimately responded to
the scene were able to see into plaintiffs Jeep due to the
Jeep’s windows being tinted. (Docs. 74-1, at If 7; 76-1, at If
6). The parties agree that plaintiff refused to provide his
driver’s license or any other identifying information.
(Docs. 15, at 1 27; 74-1, at If 4; 76-1, at U 6).
Following this initial interaction with plaintiff,
Bremer County Deputy Sheriff Kyle Shores (“Shores”)
arrived at the scene, and Tiedt updated Shores on what
had transpired up to that point. (Docs. 15, at 1 36; 76-1,

5a

at U 8). Shores’ patrol car was also equipped with a dash
camera. (Shores Video; Doc. 76-1, at
5). Plaintiff
continued to refuse to provide identification and refused
to exit his Jeep upon request. (Docs. 15, at
37-52; 76-1, at
9-11). Shores requested assistance
from the Iowa State Patrol, and Iowa State Troopers
Daniel Schaefer (“Schaefer”) and James E. Dickinson
(“Dickinson”) responded to the scene. (Docs. 15, at
61,
69; 74-1, at HI] 2-3; 76-1, at U 12). Upon Dickinson and
Schaefer’s arrival, Tiedt and Shores apprised the troopers
of the situation.(Docs. 74-1, at U 4; 76-1, at TJ 15).
Dickinson and Schaefer’s patrol cars were likewise
equipped with dash cameras which recorded the events
giving rise to this case. (Dickinson Video; Schaefer Video;
Doc. 74, at ^ 3).
Defendants approached plaintiffs Jeep together and
Tiedt again requested that plaintiff exit the Jeep,
informing plaintiff that if he refused the officers would
have to break one of the Jeep’s windows and remove
plaintiff from the Jeep. (Docs. 15, at
70; 74*1, at % 5).
Schaefer continued to command plaintiff to roll the
window down and provide identification. (Doc. 74-1, at T|
7). When plaintiff continued to be non- compliant,
Schaefer unsuccessfully attempted to use a window
punch to break the Jeep’s front passenger window. (Docs.
74*1, at ^ 9; 76-1, at ^ 17). Shortly after Schaefer’s failed
attempt, plaintiff stepped out of the Jeep. (Docs. 74-1, at
10; 76-1, at If 17). Plaintiffs refusal to provide
identification or get out of the Jeep persisted for
approximately twenty minutes. (Tiedt Video 17'53:2418:15:45).
Once plaintiff stepped out of the Jeep, defendants
arrested him. (Schaefer Video, at 18:33:32-34:38; Docs.
15, at If 96-104; 74-1, at UH 18-20; 76-1, at U 11).
Plaintiff alleges that each of the defendants used
excessive force in arresting him. (Doc. 15, at
96-

6a

104). Plaintiff alleges that Tiedt grabbed his wrist, swept
his leg, and wrenched plaintiffs arm behind his back
while Tiedt handcuffed plaintiff. (Docs. 15, at If If 96*97,
100*02; 83, at Iflf 3, 31, 35; 83*2, at 7). Plaintiff claims
that Schaefer pointed his taser at plaintiff, grabbed
plaintiff by the head and neck to pull plaintiff to the
ground, kneed plaintiff in the groin, and drove his
shoulder into plaintiffs shoulder and back while plaintiff
was on the ground. (Docs. 15, at If If 96*97, 100*102, 103;
83, at 1ft 31, 34, 41* 42, 83*2, at 3*6, 9*11). Plaintiff
asserts that while he was on the ground, Shores put his
hand on the back of plaintiffs head and forced plaintiffs
head and face into the pavement. (Docs. 15, at t 100; 83,
at tlf 3, 31). Plaintiff also claims that Schaefer struck
plaintiff in the right thigh with a flashlight or other
object during his arrest. (Docs. 15, at 1f 100, at 8). After
plaintiff was handcuffed and the officer brought him to
his feet, plaintiff lunged toward his Jeep and used his
shoulder to close the locked door. (Docs. 15, at If If 107,
116; 74*1, at If 12). Plaintiff also asserts that after he
was arrested and placed in the back Tiedt’s patrol car,
Schaefer grabbed his right arm hard enough to leave
bruises and pushed plaintiff against a patrol car while
searching for plaintiffs car keys. (Docs. 15, at If 114; 83,

at 1f 11).
The state defendants claim that Schaefer’s knee
strike hit plaintiff in the thigh, not the groin (Doc. 74*1,
at If 11), and that Dickinson never struck plaintiffs right
thigh. (Doc. 74*2, at 17). The county defendants assert
that Shores only applied his weight to plaintiffs left
shoulder, not his head, and only did so for the amount of
time necessary to secure plaintiff. (Doc. 78, at 12).
Defendants assert that plaintiff resisted arrest, and that
the force used in arresting plaintiff was reasonable under
the circumstances. (Docs. 74*1, at 1f 11; 76*1, at If If 18*20,
27*28).

7a

Once plaintiff was under arrest, Tiedt decided to
impound plaintiffs Jeep and have it towed from the gas
station parking lot; the state defendants believed that
Tiedt’s decision was in accordance with the Bremer
County Sheriffs policy. (Docs. 74-1, at Tf 15; 83, at TH 4,
9). Defendants searched plaintiffs Jeep before towing it
as part of the impoundment. (Doc. 74-1, at ^ 15-16). The
state defendants claim the search was an inventory
search performed in accordance with the Iowa State
Patrol’s Abandoned/Towed Vehicles policy. (Docs. 74-1, at
15; 74-3, at 36-38). Plaintiff takes issue with several
aspects of the defendants’ inventory search and argues
that defendants did not properly inventory the entire
contents of his Jeep. (Docs. 15, at THf 111-13, 115-151; 83,
at Tflf 1) 5*6). Defendants found, among numerous other
items, two handguns, an M4 rifle, and 250 rounds of
ammunition, in plaintiffs Jeep. (Docs. 74-1, at ^ 16; 74*
3, at 12).
//.

PROCEDURAL HISTORY

The Court will recount the procedural history of this
case for purposes of explaining which counts remain and
which defendants remain parties to this litigation. On
December 14, 2015, plaintiff voluntarily dismissed
defendant Marks Auto Repair and Wrecker Service. (Doc.
24). On March 4, 2016, this Court granted in part and
denied in part two motions to dismiss. (Doc. 26). The
Court dismissed counts three through five and found
that counts one and two were sufficiently pled to survive.
(Id., at 14). The only counts asserted against defendants
Connie Sents (“Sents”), Dan Pickett (“Pickett”), and
Bremer County, Iowa were counts four and five. (See Doc.
15, at 26- 27). As such, when the Court dismissed counts
four and five, these three defendants were terminated as
parties to the litigation.
On April 6, 2016, the Court dismissed defendant
Kenneth Wayne Wiley (“Wiley”) as a party (Doc. 31), and

8a

plaintiff did not appeal that dismissal. (see Br. for App.,
Fleshner, 715 F. App’x 575 (No. 16-4022), 2017 WL
490143). Plaintiffs first count named only defendant
Wiley (Doc. 15, at 24), so count one was terminated as
well.
On September 21, 2016, the Court granted summary
judgment in favor of the remaining defendants on count
two, alleging excessive force during plaintiffs arrest,
which was the only remaining claim. (Doc. 39). Plaintiff
appealed the Court’s summary judgment order as to
count two and the Court’s order dismissing counts three
and five.
The Eighth Circuit Court of Appeals affirmed in part,
reversed in part, and remanded this case for further
proceedings. Fleshner v. Tiedt, 715 F. App’x 575, 577 (8th
Cir. 2018). The Eighth Circuit upheld the Court’s
dismissal of count five, and plaintiff did not appeal the
dismissal of count four. Id. at 576 n.l, 577. Defendants
Sents, Pickett, and Bremer County, Iowa remain
terminated as parties to this action. The Eighth Circuit
reversed this Court’s dismissal of count three and
reversed the adverse grant of summary judgment as to
count two. Id. at 577. Counts two and three are
nowpending before the Court, and both the state
defendants and the county defendants move for summary
judgment on both remaining counts. The only defendants
who remain parties to this action are defendants Tiedt,
Shores, Schaefer, and Dickinson.
hi.
a.

APPLICABLE LAW

Summary Judgment

Summary judgment is appropriate when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a).
When asserting that a fact is undisputed or is

9a

genuinely disputed, a party must support the assertion
by “citing to particular parts of materials in the record,
including depositions, documents, electronically stored
information, affidavits or declarations, stipulations . . .,
admissions, interrogatory answers, or other materials.”
FED. R. CIV. P. 56(c)(1)(A); see Celotex Corp. v.
Catrett, All U.S. 317, 322 (1986).
Alternatively, a party may “show[ ] that the materials
cited do not establish the absence or presence of a
genuine dispute, or that an adverse party cannot produce
admissible evidence to support the fact.” FED. R. CIV. P.
56(c)(1)(B). More specifically, “[a] party may object that
the material cited to support or dispute a fact cannot be
presented in a form that would be admissible in
evidence.” FED. R. CIV. P. 56(c)(2).
A fact is “material” if it “might affect the outcome of
the suit under the governing law . . ..” Anderson v.
Liberty Lobby, Inc., All U.S. 242, 248 (1986) (citation
omitted). “An issue of material fact is genuine if it has
a real basis in the record,” Hartnagel v. Norman, 953
F.2d 394, 395 (8th Cir. 1992) (citation omitted), or
“when a reasonable jury could return a verdict for the
nonmoving party on the question,”
Wood v.
DaimlerChrysler Corp., 409 F.3d 984, 990 (8th Cir.
2005) (internal quotation marks and citation omitted).
Evidence that presents only “some metaphysical doubt
as to the material facts,” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586 (1986), or
evidence that is “merely colorable” or “not significantly
probative,” Anderson,
All U.S. at 249-50, does not make an issue of fact
genuine. In sum, a genuine issue of material fact requires
“sufficient evidence supporting the claimed factual
dispute” that it “require[s] a jury or judge to resolve the
parties’ differing versions of the truth at trial.” Id. at 249
(citation and internal quotation marks omitted).

10a

The party moving for summary judgment bears “the
initial responsibility of informing the district court of the
basis for its motion and identifying those portions of the
record which show a lack of a genuine issue.” Hartnagel,
953 F.2d at 395 (citation omitted). Once the moving party
has met this burden, the nonmoving party must go
beyond the pleadings and by depositions, affidavits, or
other evidence designate specific facts showing that there
is a genuine issue for trial. See Mosley v. City of
Northwoods, Mo., 415 F.3d 908, 910 (8th Cir.2005).
In determining whether a genuine issue of material
fact exists, courts must view the evidence in the light
most favorable to the nonmoving party, giving that
party the benefit of all reasonable inferences that can
be drawn from the facts. Tolan v. Cotton, 134 S. Ct.
1861, 1863 (2014); Matsushita, 475 U.S. at 587-88
(citation omitted); see also Reed v. City of St. Charles,
Mo., 561 F.3d 788, 790 (8th Cir. 2009) (stating that in
ruling on a motion for summary judgment, a court
must view the facts “in a light most favorable to the
non-moving party—as long as those facts are not so
‘blatantly contradicted by the record . . . that no
reasonable jury could believe’ them”) (alteration in
original) (quoting Scott v. Harris, 550 U.S. 372, 380
(2007)). A court does “not weigh the evidence or attempt
to determine the credibility of the witnesses.”
Kammueller
i. Loomis, Fargo & Co., 383 F.3d 779, 784 (8th Cir.
2004) (citation omitted). Rather, a “court’s function is
to determine whether a dispute about a material fact
is genuine . . ..” Quick v. Donaldson Co., Inc., 90 F.3d
1372, 1376-77 (8th Cir. 1996). When considering a
motion for summary judgment, “[t]he court need
consider only the
cited materials, but it may consider other materials in
the record.” FED. R. CIV. P. 56(c)(3). 2

11a

B.

Section 1983 Claims

Plaintiffs remaining claims are all brought under
Title 42, United States Code, Section 1983. (Doc. 15, at
Ifl 217-24). “Section 1983 provides a remedy against any
person who, under color of state law, deprives another of
rights protected by the Constitution.” Collins v. City of
Harker Heights, Tex., 503 U.S. 115, 120 (1992) (internal
quotation marks omitted). The Fourth Amendment
protects persons from “unreasonable searches and
seizures,” U.S. CONST. AMEND. IV, and reasonable is
the “ultimate touchstone” of Fourth Amendment analysis.
Riley v. California, 573 U.S. 373, 381-82 (2014) (citations
omitted). Traffic stops, United States v. $45,000.00 in
U.S. Currency, 749 F.3d 709, 715 (8th Cir. 2014),
inventory searches, United States v. Mays, 982 F.2d 319,
321 (8th Cir. 1993), and excessive force claims, Graham
v. Connor, 490
U.S. 386, 395, (1989), are all analyzed under the Fourth
Amendment’s reasonableness standard. Section 1983
liability is personal, so the court assesses the
reasonableness of each defendant’s conduct individually.
Frederick v. Motsinger, 873 F.3d 641, 646 (8th Cir. 2017).
On remand, plaintiff has four claims contained in
two counts. In count two, plaintiff claims that defendants
violated his Fourth Amendment rights by using excessive
force during plaintiffs arrest. (Doc. 15, at 24-25);
Fleshner, 715 F. App’x at 577. Plaintiffs count three,

^ Plaintiffs complaint is primarily comprised of references to defendants’
dash camera videos. (See Doc. 15, at 3-17). The dash camera videos are
part of the summary judgment record. To the extent that plaintiffs
allegations in the complaint reference the factual content of the videos,
rather than plaintiffs characterizations of or legal conclusions regarding
the content of the videos, the Court will consider plaintiff s complaint in
determining the presence or absence of genuine issues of material fact.

12a

alleging unlawful search and seizure, includes three
different claims. First, plaintiff claims he “was subjected
to an objectively unreasonable traffic stop, which was not
supported by probable cause or reasonable suspicion.”
Fleshner, 715 F. App’x at 576. Second, construing
plaintiffs pro se pleadings liberally, Horner v. City of
Kansas City; Missouri, 593 F. App’x 590 (8th Cir. 2015),
plaintiff appears to claim that he was arrested without
probable cause. (Doc. 15, at 3-11, 25-26). Third,
plaintiff claims that defendants’ decision to tow and
inventory search his Jeep violated his Fourth
Amendment rights because the decisions “were not
made in furtherance of a community caretaking
function, pursuant to standard . . . practices.”
Fleshner, 715 F. App’x at 577.^ The Court will analyze
all of plaintiffs remaining claims under the Fourth
Amendment’s reasonableness standard, although the
Court will address the issues in a more logical order.
c.

Qualified Immunity

“The doctrine of qualified immunity protects
government officials from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a
6 The law of the case doctrine does not apply to defendants’ motions for
summary judgment on plaintiff s search and seizure claims in count
three. The law of the case doctrine provides that “when a case has been
decided by an appellate court and remanded for further proceedings,
every question decided by the appellate court, whether expressly or by
necessary implication, is finally settled and determined, and the court
on remand is bound by the decree.” Thompson v. Comm’r, 821 F.3d
1008, 1011 (8th Cir. 2016). The Court dismissed count three under the
Rule 12(b)(6) standard. (Doc. 26, at 6, 9-11). Although the Eighth
Circuit Court of Appeals found that count three stated claims
sufficiently to survive under the Rule 12(b)(6) standard, Fleshner, 715
F. App’x at 576-77, the Eighth Circuit did not address the Rule 56
standard for summary judgment as to count three, so the law of the
case doctrine does not apply to the motions for summary judgment.

13a

reasonable person would have known ” Pearson v.
Callahan, 555 US. 223, 231 (2009) (citations and internal
quotation marks omitted). Qualified immunity is “an
immunity from suit rather than a mere defense to
liability [and] it is effectively lost if a case is erroneously
permitted to go to trial.” Id. at 231 (quoting Mitchell v.
Forsyth, 472 U.S. 511, 526 (1985)). “[Q]ualified immunity
protects officials who make bad guesses in gray areas.”
Estate of Walker v. Wallace, 881 F.3d 1056, 1060 (8th
Cir. 2018).
When a motion for summary judgment rests on a
claim of qualified immunity, courts examine two prongs
to resolve the claim: (l) the court must decide if the facts
established by the record make out a violation of a
constitutional right, and (2) “the court must decide
whether the right at issue was ‘clearly established’ at the
time of defendant’s alleged misconduct.” Pearson, 555
U.S. at 232. Courts have discretion as to which of the two
prongs to apply first. Id. at 236. In assessing qualified
immunity at the motion for summary judgment stage, the
court determines the material facts under the Rule 56
standard, but “[o]nce the predicate facts are established,
the reasonableness of the official’s conduct under the
circumstances is a question of law.” Tlamka v. Serrell,
244 F.3d 628, 632 (8th Cir. 2001). “On summary
judgment, the judge appropriately may determine, not
only the currently applicable law, but whether that law
was clearly established at the time an action occurred.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). A plaintiff
bears the burden of showing that the law was clearly
established. Estate of Walker, 881 F.3d at 1060.
For the law to be clearly established “existing law
must have placed the constitutionality of the officer’s
conduct beyond debate. This demanding standard
protects all but the plainly incompetent or those who
knowingly violate the law.” District of Columbia v. Wesby,

14a

138 S. Ct. 577, 589 (2018) (internal citations and
quotation marks omitted). Further, “precedent must be
clear enough that every reasonable official would
interpret it to establish the particular rule the plaintiff
seeks to apply. Otherwise, the rule is not one that every
reasonable official would know.” Id. at 590 (internal
quotation marks and citations omitted). A right is clearly
established by controlling authority, or, absent that, a
“robust consensus of cases of persuasive authority,”
which puts an officer on notice that his conduct is
unlawful. De La Rosa v. White, 852 F.3d 740, 745 (8th
Cir. 2017) (quoting Ashcroft v. aLKidd, 563 U.S. 731, 742
(2011)). Like liability under Section 1983, qualified
immunity is personal, so the court assesses each
individual’s conduct independently. Marsh v. Phelps
Cty , 902 F.3d 745, 754 (8th Cir. 2018).
iv.
a.

ANALYSIS

Unreasonable Seizure — Traffic Stop
i.

Findings of Fact

The Court makes the following findings of fact as to
plaintiffs unreasonable seizure claim as it relates to the
traffic stop. At approximately 6-00 p.m. on December 24,
2014, the Bremer County Sheriffs Office received a
driving complaint from Wiley, a third party driving
behind plaintiff. (Doc. 76*2, at 8). The dispatcher then
relayed the complaint to Tiedt. (Id). Wiley reported “a
dark green Jeep swerving within its’ [sic] own lane of
traffic and partially into the other lane of traffic” while
driving southbound on Highway 218, in Bremer County,
Iowa. (Id). Wiley also reported that the Jeep was driving
on the line. (Id). Wiley informed the dispatcher that he
was driving behind the Jeep and Wiley described the
color, make, and model of his vehicle. (Id). Although
plaintiff appears to dispute the accuracy of Wiley’s claims
regarding his driving (Doc. 35, at 13), he does not dispute
that Wiley made the claims set forth in Tiedt’s report, nor

15a

does plaintiff dispute that Wiley was driving behind him.
Tiedt positioned his patrol car in the median on
Highway 218 and observed “a dark colored 4 door Jeep
with very tinted drivers [sic] windows.” (Doc. 76-2, at 8).
Tiedt was “unable to see into the Jeep due to the
darkness of the windows.” {Id). Following plaintiffs
arrest, Tiedt tested plaintiffs front, driver’s*side window
and found that it was tinted to 20 percent light
transmittance. (Schaefer Video, at 18-50-20; Doc. 76-2, at
9). Tiedt ultimately cited plaintiff for having unlawfully
tinted windows in violation of Iowa Code Section
321.438(2), and plaintiff pleaded guilty to the charge.
(Doc. 76-2, at 9, 38). Tiedt also observed Wiley’s vehicle
traveling directly behind plaintiffs Jeep, and Wiley
confirmed to dispatch that he saw Tiedt’s patrol car. (Doc.
76-2, at 8).
Tiedt pulled onto Highway 218 southbound and
began to follow plaintiffs Jeep. {Id). Tiedt claims that he
observed plaintiffs Jeep “weaving within its own lane of
traffic,” and that the Jeep “touched the fog line once as
well as the center line once.” {Id). Construing plaintiffs
pro se pleadings broadly, plaintiff denies that he touched
the fog line or the center line or weaved within his lane
while Tiedt was driving behind him. (Docs. 15, at
16,
22-23, 28, 66; 35, at 13; 83, at
18, 26, 30). The Court
finds that there is an issue of fact as to whether Tiedt
observed plaintiff swerving within his lane or touching
the fog line and/or the center line. Tiedt noted that the
Jeep had South Dakota license plates. (Doc. 76-2, at 8).
Tiedt activated his emergency lights to initiate a traffic
stop of plaintiffs Jeep, but plaintiff did not immediately
pull over. (Tiedt Video, at 17:50*30; Docs. 15, at
15-18;
76-1, at
3*4; 76-2, at 8). As found above, plaintiff
continued driving for two minutes and approximately two
miles, and plaintiff ultimately pulled into the gas station
parking lot. After plaintiff stopped in the parking lot, he

16a

refused to provide his identification or exit his Jeep for
approximately twenty minutes. (Tiedt Video, at 17-53-2418-15-45). Tiedt requested assistance from Shores, and
Shores traveled to the gas station to assist Tiedt. (Docs.
15, at THf 26, 36; 76-1, at
5, 8). Shores contacted
Dickinson and requested assistance with the ongoing
traffic stop of plaintiffs Jeep. (Docs. 15, at 61; 74-1, at
1-2; 76-1, at ^ 61). Dickinson in turn contacted
Schaefer and notified him about the traffic stop. (Doc. 741, at Tf 3). Schaefer and Dickinson arrived at the gas
station at approximately the same time, and Tiedt gave
Schaefer and Dickinson a more detailed description of the
events that occurred before their arrival. (Docs. 74-1, at
3-4; 76-1, at f 15).

2.

Deputy Tiedt

The county defendants argue that summary
judgment is appropriate because there is no genuine
issue of material fact that Tiedt had a reasonable basis to
initiate the traffic stop. (Doc. 78, at 3-11).^ “Under the
Fourth Amendment, a traffic stop is reasonable if it is
supported by either probable cause or an articulable and
reasonable suspicion that a traffic violation has

4 The county defendants also purport to move for summary judgment
based on qualified immunity. (Doc. 78, at 29). The county defendants’
qualified immunity argument focuses entirely on the excessive force
claim, however, and merely throws in a single hne stating that the
county defendants are also entitled to qualified immunity on the
unreasonable seizure claim. Id. The Court will not “address
threadbare arguments for dismissal unsupported by sufficiently
reasoned analysis.” Fort Des Moines Church of Christ v. Jackson,
215 F. Supp.3d 776, 792 (S.D. Iowa 2016). Accordingly, the Court
will not address qualified immunity as it relates to plaintiffs
unreasonable seizure claim against the county defendants.

17a

occurred/’ United States v. Walker, 840 F.3d
477, 483 (8th Cir. 2016) (quotation omitted). The
Eighth Circuit has defined reasonable suspicion
and probable cause, and the relationship
between the standards^
A law enforcement officer has reasonable
suspicion when the officer is aware of
particularized, objective facts which, taken
together with rational inferences from those
facts, reasonably warrant suspicion that a crime
is being committed. The more rigorous standard
of probable cause exists when the totality of the
circumstances justifies the belief that a crime
has been committed and the person being seized
committed it.
United States v. Houston, 548 F.3d 1151, 1153 (8th Cir.
2008) (internal citation and quotation marks omitted).
Reasonable suspicion is a less demanding standard than
probable cause and requires “considerably less than proof
of wrongdoing by a preponderance of the evidence.”
United States v. Sokolow, 490 U.S. 1, 7 (1989). Courts
determine the existence of reasonable suspicion or
probable cause on an objective basis. See United States v.
McLemore, 887 F.3d 861, 864 (8th Cir. 2018)
(“Reasonable suspicion is a particularized and objective
basis for suspecting the particular person
stopped of breaking the law.”) (internal quotations and
citation omitted)); Wesby, 138 S. Ct. at 585 n.2
(“[Pjrobable cause is an objective standard ”).
Under these objective standards, a court may find
that a stop was reasonable under the Fourth Amendment
even if the grounds for the court’s decision are different
than the basis the arresting officer relied on. See United
States v. Cade-Gilson, No. 14-CR-2035- LRR, 2014 WL
4843895, at *4 (N.D. Iowa Sept. 29, 2014) (citing United
States v. Guevara, 731 F.3d 824, 828—29 (8th Cir. 2013),

18a

affd sub nom. United States v. Gilson, 654 F. App’x 247
(8th Cir. 2016); see also Devenpeck v. Alford, 543 U.S.
146, 153 (2004) (citing Whren v. United States, 517 U.S.
806, 812-13, (1996)) (“[A]n arresting officer’s state of
mind (except for the facts that he knows) is irrelevant to
the existence of probable cause.”).
Once a suspect is seized as part of a traffic stop the
authority for the seizure extends until tasks tied to the
traffic infraction are completed, which include ordinary
inquiries like “checking the driver’s license, determining
whether there are outstanding warrants against the
driver, and inspecting the automobile’s registration and
proof of insurance.” Rodriguez v. United States, 135 S.
Ct. 1609, 1614-1615 (2015).
a.

Window Tints

Tiedt did not violate plaintiffs right to be free from
unreasonable seizures because Tiedt had, at minimum,
reasonable suspicion to initiate the traffic stop based on
plaintiffs tinted windows. The Iowa Code providesA person shall not operate on the highway a
motor vehicle equipped with a front windshield,
a side window to the immediate right or left of
the driver, or a side-wing forward of and to the
left or right of the driver which is excessively
dark or reflective so that it is difficult for a
person outside the motor vehicle to see into the
motor vehicle through the windshield, window,
or sidewing. The department shall adopt rules
establishing a minimum measurable standard of
transparency which shall apply to violations of
this subsection.
IOWA CODE § 321.438(2). The Iowa Department of
Transportation defines windows that are “excessively
dark or reflective” as windows that do not have at least
70 percent light transmittance, IOWA ADMIN. CODE r.

19a

761-450.7(2)(32l), i.e. the tint must allow at least 70
percent of light to pass through the windshield or
window. This Court has found that Section 321.438(2)
provided at least reasonable suspicion to justify a traffic
stop when the officer noted that he “could barely see a
silhouette of a driver in the vehicle. The windows were
that dark.” United States v. Johnson, No. CR05-4063MWB, 2005 WL 2704892, at *5, 7 (N.D. Iowa Oct. 20,
2005).
When Tiedt first observed plaintiffs Jeep traveling
on Highway 218 he saw that plaintiffs Jeep had very
tinted driver’s side windows, and Tiedt could not see into
the Jeep due to the tint. Tiedt’s observation provided
reasonable suspicion that plaintiff was committing a
traffic violation. See IOWA CODE § 321.438(2))' Johnson,
2005 WL 2704892, at *5. Tiedt’s suspicion was
particularly reasonable here as plaintiffs windows were
tinted to 20 percent light transmittance, which is far
lower the 70 percent transmittance allowed by the Iowa
Department of Transportation. IOWA ADMIN. CODE r.
761-450.7(2)(32l). Once Tiedt initiated the traffic stop, it
was reasonable for him to detain plaintiff until Tiedt
could complete all tasks tied to investigating the traffic
infraction, including checking plaintiffs driver’s license,
which plaintiff repeatedly refused to provide. Rodriguez,
135 S. Ct. at 1614-1615. The traffic stop was objectively
reasonable as a matter of law, and Tiedt is entitled to
summary judgment on count three to the extent plaintiff
asserts the traffic stop violated his Fourth Amendment
rights.
b.
Wiley's Report ofPlaintiffs Driving
The county defendants argue that Tiedt’s traffic stop
of plaintiff was justified “based upon the report of erratic
driving by a citizen, and Tiedt’s own observations of
Fleshner’s driving.” (Doc. 78, at 10-ll). As found above,
there is an issue of fact as to whether Tiedt in fact

20a

witnessed plaintiff swerving within his lane or hitting the
fog line or center line, but there is no genuine issue of
material fact as to the information that Wiley reported to
the Bremer County Sheriffs dispatcher, and under the
totality of the circumstances, Navarette v. California, 572
U.S. 393, 397 (2014), Tiedt had reasonable suspicion to
initiate the traffic stop based on Wiley’s reported
observations.
i.

Reliability of Wiley’s Report

Tiedt was entitled to rely on the content of Wiley’s
report to the Bremer County dispatcher, even if Tiedt did
not personally witness plaintiff swerve within his lane or
touch or cross the fog line or center line. An officer can
rely on a driving complaint, even an anonymous one,
when there are sufficient indicia of reliability, including
the caller’s ability to identify the vehicle, the basis of the
caller’s knowledge, and whether the officer can
independently confirm other details of the complaint. See
Navarette, 572 U.S. at 398-99; see also Vander Leest v.
Steffens, No. 09-C-125, 2010 WL 5439717, at *6 (E.D.
Wis. Dec. 28, 2010) (holding officer had reasonable
suspicion to stop driver based on tip that driver was
intoxicated, and was not required to personally observe
unsafe driving because that rule would protect drunk
drivers who could maintain control of the vehicle for
short distances and put the public and the driver’s
passengers at a greater risk).
Wiley’s report had sufficient indicia of reliability for
Tiedt to rely on its contents. First, the report was not
anonymous; Wiley gave his name. Second, Wiley reported
a dark-green Jeep swerving on Highway 218. Tiedt first
identified plaintiffs vehicle as “a dark colored 4 door
Jeep” which was driving on Highway 218 near the
reported location. Plaintiff states that his Jeep is black,
not dark green (Doc. 15, at t 83), but the difference is
immaterial because it was the same make of vehicle, the

21a

colors were similar, and plaintiffs Jeep was in the
reported location. See United States v. Thompson, 906
F.2d 1292, 1296 (8th Cir. 1990) (holding that a report
that suspects would be driving a silver and blue Lincoln
Continental provided reasonable suspicion to stop black
and blue Lincoln Continental near the scene of the
crime). Third, Tiedt knew Wiley was reporting based on
Wiley’s personal observations because Tiedt confirmed
that Wiley’s vehicle was following the dark-colored Jeep.
Finally, Tiedt’s identification of Wiley’s vehicle likewise
confirmed the detail of Wiley’s report that Wiley was
following the Jeep that he witnessed swerving. The Court
finds that there were sufficient indicia of reliability as a
matter of law for Tiedt to rely on Wiley’s report.
Plaintiff disputes the truth of the information Wiley
reported, but whether Wiley’s report was accurate is
not a material fact because it does not affect the
outcome of plaintiffs claim under the governing law.
Anderson, 477 U.S. at 248. In determining if Tiedt had
reasonable suspicion to effect the traffic stop it is
irrelevant whether the information reported by Wiley
was ultimately correct. “The determination of whether
. . . reasonable suspicion existed is not to be made with
the vision of hindsight, but instead by looking to what
the officer reasonably knew at the time.” United States
v. Gaffney, 789 F.3d 866, 868 (8th Cir. 2015) (citation
omitted); see also United States
v. Garofalo, 496 F.2d 510, 511 (8th Cir. 1974) (holding
when the determination of probable cause was based on
an informant’s lie, the fact that the informant lied
standing alone, does not invalidate the warrant issued
based on the informant’s tip). Even if the Court accepts
plaintiffs assertion that the content of Wiley’s report was
false, Tiedt was entitled to rely on Wiley’s statements
given the objective indicia of reliability.
ii. Reasonable Suspicion Based on Wileys Report

22a

Assuming, as Tiedt was permitted to do, that the
information in Wiley’s report was true, the totality of the
circumstances provided reasonable suspicion for Tiedt to
initiate the traffic stop. Officers can initiate traffic stops if
they have reasonable suspicion that any traffic violation
is occurring. Walker; 840 F.3d at 483. Driving under the
influence of drugs or alcohol is a traffic violation. IOWA
CODE § 321J.2. In assessing whether a traffic stop was
supported by reasonable suspicion, a court must “avoid
unrealistic second-guessing of police officers’ decisions,
and [ ] accord appropriate deference to the ability of a
trained law enforcement officer to distinguish between
innocent and suspicious actions.” United States v.
Vercher, 358 F.3d 1257, 1262 (10th Cir. 2004) (quotation
omitted). The facts giving rise to reasonable suspicion
“need not establish that the suspect is probably guilty of a
crime or eliminate innocent interpretations of the
circumstances.” United States v. Stewart, 631 F.3d 453,
457 (8th Cir. 2011) (citation omitted). Whether a driver is
in fact intoxicated, or whether an officer ultimately
performs field sobriety tests after initiating the traffic
stop, is irrelevant to whether an officer had reasonable
suspicion at the time of the stop. See United States v.
Herrera- Gonzalez, 474 F.3d 1105, 1111 n.3 (8th Cir.
2007) (“[The officer’s] failure to conduct a field sobriety
test or pursue a line of questioning that would have
investigated his stated suspicion that [defendant] was
impaired, even if it did reveal a suspect motivation, is
irrelevant to the question of whether it was objectively
reasonable for [the officer] to believe a traffic violation
had occurred.”).
In addition to seizures for traffic violations, officers
may seize persons as necessary to ensure the safety of the
public or the individual in as part of officers’ community
caretaking functions. Winters v. Adams, 254 F.3d 758,
762-64 (8th Cir. 2001). Pulling over a driver that the

23a

officer suspects is intoxicated or fatigued is a valid
exercise of an officer’s community-caretaker function.
United States v. Ramirez, 213 F. Supp. 2d 722, 725*26
(S.D. Tex. 2002), affd\ 66 F. App’x 523 (5th Cir. 2003); see
also United States v. Jones, 501 F. Supp. 2d 1284, 1299
(D. Kan. 2007) (“A vehicle may be stopped when there is a
reasonable suspicion that the driver may be falling asleep
or is driving under the influence of alcohol or drugs.”).
Under the totality of the circumstances, Tiedt had
reasonable suspicion to initiate the traffic stop either to
investigate whether plaintiff was committing a crime, or
whether plaintiff posed a danger to himself or other
drivers because plaintiff was falling asleep or
experiencing a medical event. Wiley’s report described
plaintiff swerving within his own lane, crossing into the
other lane of traffic, and driving on the line. Given that
Wiley’s report had sufficient indicia of reliability,
plaintiffs reported driving pattern was sufficient to
support a reasonable, articulable suspicion to investigate
whether plaintiff was intoxicated or otherwise not in a
condition to operate a vehicle. See United States v.Long,
532 F.3d 791, 795 (8th Cir. 2008); United States v.
Mallari, 334 F.3d 765, 767 (8th Cir. 2003). Courts have
consistently upheld traffic stops based on driving
behaviors like those at issue in this case, as reported by
Wiley. See United States v. Harmon, 742 F.3d 451, 458
(10th Cir. 2014); United States v. Smith, 448 F. App’x
936, 938 (11th Cir. 2011); United States v. Tang, 332 F.
App’x 446, 452 (10th Cir. 2009); United States v.
Zabawa, 134 F. App’x 60, 64 (6th Cir. 2005); United
States v. Dupas, 126 F. App’x 845, 846 (9th Cir. 2005);
Gaddis ex rel. Gaddis v. Redford Twp., 364 F.3d 763,
772 (6th Cir. 2004); United States v. Zabalza, 346 F.3d
1255, 1258-59 (10th Cir. 2003); United States v.
Ozbirn, 189 F.3d 1194, 1199 (10th Cir. 1999); United
States v. Harris, 928 F.2d 1113, 1116 (llth Cir. 1991).

24a

In addition to the driver’s operation of the vehicle,
courts consider other relevant circumstances to
determine if an officer had reasonable suspicion of
intoxicated or fatigued driving. Jones, 501 F. Supp. 2d at
1299 (noting that a vehicle’s Minnesota plates, evidence
that the vehicle had been driven in weather unlike the
local weather, and the fact that the vehicle was on the
road at 6*00 a.m. supported officer’s reasonable suspicion
that the driver had driven all night and was fatigued);
Tang, 332 F. App’x 446, 452 (10th Cir. 2009) ([Officer]
reasonably believed that a driver of a U-Haul was likely
moving and could have been driving all day, or for an
extended length of time. [Officer] had reasonable
suspicion to believe that the driver of the vehicle was
impaired, and this reasonable suspicion supports his
stopping the vehicle to investigate the driver’s
condition.”). Other relevant circumstances here added to
the reasonable suspicion to justify the stop.
The Bremer County Sheriffs Office received Wiley’s
complaint at approximately 6-00 p.m. on Christmas Eve.
It is well known that holiday celebrations frequently
include the consumption of alcohol, which, combined with
Wiley’s description of plaintiffs driving, constituted
reasonable suspicion that plaintiff may have been driving
while intoxicated. Plaintiffs Jeep also had South Dakota
license plates and plaintiff was driving in Bremer County,
in Northeast Iowa, several hours’ drive away. The
distance adds to Tiedt’s objectively reasonable basis to
believe that plaintiff could have been tired, which in turn
justified the stop under the community caretaking
function.
In light of the undisputed facts regarding Wiley’s
report of plaintiffs driving, and the circumstances at the
time of the traffic stop, the Court finds as a matter of law
that Tiedt had reasonable suspicion to initiate the traffic
stop. Because the traffic stop was supported by

25a

reasonable suspicion both because of plaintiffs tinted
windows, and separately based on Wiley’s report of
plaintiffs driving and the surrounding circumstances, the
traffic stop did not violate plaintiffs Fourth Amendment
rights, and the county defendants’ motion for summary
judgment is granted as to count three against Tiedt to the
extent it alleges plaintiff was subjected to an
unreasonable traffic stop.
3.

Deputy Shores

Plaintiff alleges generally that the “[defendants had
no probable cause to stop and detain” him. (Doc. 15, at U
220). Liability under Section 1983, however, is personal
so the Court must assess the reasonableness of each
officer’s conduct individually. Frederick, 873 F.3d at 646.
Plaintiffs unreasonable seizure claim against Shores
fails as a matter of law because, as the Court found
above, the traffic stop was supported by reasonable
suspicion. Even if Tiedt’s initial stop of plaintiffs Jeep
was unconstitutional, Shores is entitled to summary
judgment on plaintiffs unlawful seizure claim because
Shores did not cause plaintiff to be seized.
“Liability under section 1983 requires a causal link
to, and direct responsibility for, the deprivation of rights.”
Mayorga v. Missouri, 442 F.3d 1128, 1132 (8th Cir. 2006)
(citation omitted). The plaintiff in a Section 1983 case
must prove that a particular defendant was the “cause in
fact” of the plaintiffs injury, meaning that the injury
would not have occurred but for the defendant’s conduct.
Butler v. Dowd, 979 F.2d 661, 669 (8th Cir. 1992). There
is no dispute that Tiedt, not Shores, initiated the traffic
stop at issue in this case. Shores arrived at the scene
later to assist Tiedt after plaintiff was already seized.
Given the undisputed facts, Shores is entitled to
judgment as a matter of law because he was not the but*
for cause plaintiffs seizure. The county defendants’
motion for summary judgment is granted as to count

26a

three against Shores to the extent it alleges plaintiff was
subjected to an unreasonable traffic stop.5
4.

Officers Dickinson and Schaefer

Dickinson and Schaefer are entitled to summary
judgment on plaintiffs unlawful seizure claim arising out
of the traffic stop for three reasons. First, the initial
traffic stop did not violate plaintiffs Fourth Amendment
rights because it was supported by reasonable suspicion.
Second, like Shores, there is no genuine issue of material
fact that Dickinson and Schaefer did not cause plaintiff to
be seized in the initial traffic stop. Plaintiff was seized
before the county defendants requested assistance, and
well before Dickinson and Schaefer arrived at the gas
station parking lot. Thus, the state defendants could not
have caused the alleged deprivation of plaintiffs Fourth
Amendment rights. See Butler, 979 F2d at 669. So,
plaintiffs unlawful seizure claim fails against the state
defendants’ as a matter of law.
Third, Dickinson and Schaefer are entitled to
qualified immunity from plaintiffs unlawful seizure
claim. An assisting officer is entitled to qualified
immunity for an unlawful seizure if the officer reasonably
relies on the probable cause determination of the officer
that initiated the seizure. Ehlers v. City of Rapid City,
846 F.3d 1002, 1010 (8th Cir. 2017). There is no factual

5 The county defendants also assert that they are entitled to
qualified immunity on plaintiffs unlawful seizure claims. (Doc. 78, at
29). The substance of the county defendants’ qualified immunity
argument only addresses plaintiffs excessive force claim. (Doc. 78, at 2429). The Court will not address whether the county defendants are
entitled to qualified immunity on plaintiffs unlawful seizure claim
because the Court need not address threadbare arguments offered
without any reasoned analysis. Fort Des Moines Church of Christ v.
Jackson, 215 F. Supp.3d 776, 792 (S.D. Iowa 2016).

27a

dispute that Dickinson and Schaefer relied on the
information provided by Shores and Tiedt in assisting
with the traffic stop. Plaintiffs only argument is that the
state defendants’ reliance on the county defendants’
probable- cause determination was not reasonable
because the initial traffic stop was based on hearsay.
(Doc. 83, at U 7). As the Court held above, Tiedt was
permitted as a matter of law to rely on Wiley’s report
regarding plaintiff s erratic driving. Even if plaintiff were
correct that hearsay cannot form the basis of reasonable
suspicion, Tiedt separately had reasonable suspicion that
plaintiffs tinted windows constituted a traffic violation.
Thus, Dickinson and Schaefer’s reliance on the county
defendants’ reasonable suspicion determination was
reasonable, and Dickinson and Schaefer are entitled to
qualified immunity from plaintiffs unlawful seizure. The
state defendants’ motion for summary judgment is
granted as to count three against Dickinson and Schaefer
to the extent it alleges plaintiff was subjected to an
unreasonable traffic stop.
b.

Unreasonable Seizure - Unlawful Arrest
i.

Findings ofFact

The Court makes the following additional findings of
fact for plaintiffs unlawful arrest claim. Plaintiff refused
to provide his driver’s license to Tiedt after plaintiff
pulled into the gas station parking lot. (Doc. 15, at U 27).
Plaintiff continued to refuse to provide Tiedt his driver’s
license, and plaintiff refused to exit his Jeep after
Shores arrived at the scene. {Id., at
41, 47, 52*53).
Plaintiff likewise refused to exit his vehicle or provide his
driver’s license to defendants in Dickinson and Schaefer’s
presence. {Id., at
70,75). Based on the events giving
rise to this case, plaintiff was charged with two counts of
possession of a dangerous weapon, in violation of Iowa
Code Section 724.4(1); interference with official acts, in
violation of Iowa Code Section 719.1(1); failure to have a

28a

valid driver’s license, in violation of Iowa Code
321.174(1); failure to yield to an emergency vehicle, in
violation of Iowa Code Section 321.3241 and operating a
motor vehicle with illegally tinted windows, in violation of
Iowa Code Section 321.438(2). (Doc. 76*2, at 4*9, 29*40).
Plaintiff pleaded guilty to the interference with official
acts, failure to have a valid license, failure to yield to an
emergency vehicle, and illegally tinted window charges.
(Doc. 76*2, at 29*40).
2.

Probable Cause

To any extent that plaintiffs unlawful seizure claim
also asserts claims regarding plaintiff s arrest in addition
to the initial traffic stop, the defendants are entitled to
summary judgment. The county defendants argue that
they had probable cause to arrest plaintiff because
plaintiff violated the law in Tiedt’s presence. (Doc. 78, at
10). “If an officer has probable cause to believe that an
individual has committed even a very minor criminal
offense in his presence, he may, without violating the
Fourth Amendment, arrest the offender. Atwater v. City
of Lago Vista, 532 U.S. 318, 354 (2001). The Fourth
Amendment permits arrests for minor criminal offenses
punishable only by a fine. Id.
There is no genuine issue of material fact that Tiedt
had probable cause to believe that plaintiff committed
criminal acts in Tiedt’s presence. Plaintiff continued
driving for approximately two miles after Tiedt initiated
his emergency lights, and Tiedt witnessed plaintiff drive
his Jeep with unlawfully tinted windows. Plaintiff
pleaded guilty to the citations for failure to yield to an
emergency vehicle and for having illegally tinted
windows. “[A] guilty plea forecloses a section 1983 claim
for arrest without probable cause.” Williams v. Schario,
93 F.3d 527, 528—29 (8th Cir. 1996). Although the failure
to yield and tinted window charges are punishable only
by fines, see Iowa Code § 805.8A(3)(af), (ll)(a)(3), Tiedt

29a

had probable cause to arrest plaintiff on those charges.
Atwater, 532 U.S. at 323.
Also, once plaintiff finally pulled into the
gas
station parking lot, Tiedt had probable cause to believe
that plaintiff committed interference with official acts.
“A person commits interference with official acts when
the person knowingly resists or obstructs
anyone
known by the person to be a peace officer ... in the
performance of any act which is within the scope of the
lawful duty or authority of that officer ” Iowa Code §
719. l(l). Officers have the lawful authority to check a
driver’s license and determine whether the driver has
any outstanding warrants as part of a routine traffic stop.
Rodriguez, 135 S. Ct. at 1615. Also, once a driver has
been lawfully detained for a traffic violation, the officer
has the authority to order the driver out of the vehicle.
Pennsylvania v. Minims, 434 U.S. 106, 111 n.6 (1977).
There is no dispute that plaintiff refused to provide his
driver’s license, or even his name, to Tiedt, thus Tiedt had
probable cause to believe that plaintiff was resisting or
obstructing Tiedt’s lawful authority to conduct a traffic
stop. Likewise, Tiedt lawfully ordered plaintiff to exit the
Jeep, and plaintiff refused to exit the Jeep. Plaintiff
cannot argue that Tiedt did not have probable cause to
believe plaintiff interfered with official acts because
plaintiffs guilty plea forecloses that argument. Williams,
93 F.3d at 528-29.
Shores, Schaefer, and Dickinson likewise had
probable cause to arrest plaintiff. As to plaintiffs traffic
violations and plaintiff s initial refusal to identify himself,
Shores, Schaefer, and Dickinson were entitled to rely on
the information provided by Tiedt in determining there
was probable cause to arrest plaintiff. See Doran v.
Eckold, 409 F.3d 958, 965 (8th Cir. 2005) (noting the
“settled principle that law enforcement officers may rely
on information provided by others in the law enforcement

30a

community, so long as the reliance is reasonable”). Also,
Shores, Schaefer, and Dickinson had probable cause to
believe that plaintiff interfered with official acts in their
presence in light of plaintiffs continued refusals to
provide defendants his driver’s license, identify himself,
or exit his Jeep. Thus, plaintiffs arrest did not violate his
Fourth Amendment rights as a matter of law because
plaintiffs arrest was supported by probable cause.
Defendants’ motions for summary judgment are granted
as to each of the defendants on plaintiffs count three to
the extent it alleges plaintiff was subjected to an arrest
that not supported by probable cause.
c.

Unreasonable Search
i.

Findings of Fact

The Court makes the following findings of fact on
plaintiffs unreasonable search claim. Following
plaintiffs arrest, Tiedt made the decision to tow and
impound plaintiffs Jeep. (Docs. 74-1, at 1 151 83, t 4).
Dickinson and Schaefer reasonably relied on Tiedt’s
decision to tow plaintiff s Jeep, and plaintiff concedes it
was reasonable for Dickinson and Shaefer to believe
Tiedt’s decision was in accordance with policy. (Doc. 83,
at 1 4). The Iowa State Patrol’s Policy provides “[p]rior
to towing any impounded vehicle, the officer shall . . .
[clomplete an inventory of all property of the vehicle. []
The inventory shall include a list of the contents of each
container in the vehicle. Each container shall be
opened unless the contents of a particular container are
evident from its exterior.” (Doc. 74-3, at 37-38).
The first discussion of an inventory search of
plaintiffs vehicle occurred after plaintiff was placed
under arrest for interference with official acts. (Schaefer
Video, at 18:35:28-36:28; Doc. 15, at 1f1i HO, 112).
Schaefer moved his vehicle so that the search would be
recorded on his dash camera. (Schaefer Video, at
18:39:06). The defendants did not request plaintiff s

31a

consent before searching plaintiffs Jeep. (Schaefer Video,
at 18-34-36; Doc. 15, at ^ 106). After the conclusion of
the search, Schaefer reiterated to plaintiff that the
search was an inventory of the vehicle. (Schaefer Video,
at 19-43-03). In addition to recording the inventory by
Schaefer’s dash camera, the state defendants took
written notes of the property being inventoried. (See e.g.
Schaefer Video, at 18-40-55, 19-22-00). In total, the search
took one hour. (Schaefer Video 18-40-00- 19:40-00).
Plaintiff argues that the state defendants did not
comply with the abandoned/towed vehicle policy’s
requirements that the state defendants open all
containers and document the contents of each container.
(Doc. 83, at
6). Plaintiffs complaint sets out several
alleged instances of containers not being opened and
items being misidentified or not inventoried, which the
Court will assume are true for purposes of this motion.
Plaintiffs factual allegations regarding the manner
of the inventory search are limited to the search of the
luggage compartment of plaintiffs Jeep. (Doc. 15, at ^
118, 122-23). Schaefer opened Christmas gifts found in
the luggage compartment. (Id., at TH{ 124, 126, 128). The
contents of the gifts were not evident from their exterior
while they were wrapped. (Schaefer Video 19:04:2919:07:24). Schaefer searched one of plaintiffs bags but
did not find the Colt 10mm pistol inside. (Id., at 135).
Plaintiffs Colt 10mm pistol was later found and included
in the Bremer County Sheriffs Record of Property
Received. (Doc. 74-3, at 12).
Schaefer inventoried several items in plaintiff s small
brown bag and the outside pocket of plaintiffs backpack.
(Schaefer Video, at 19:22:16-19:23:42 (listing dehydrated
food, survival gear, ponchos, a heat blanket, first aid, and
water hydration, and a flashlight in the small brown
bag), 19:36:50-19:37:49 (listing a compass and window
punch, as well as other items in the front pocket)). The

32a

Court will accept as true plaintiffs assertion that
Schaefer did not inventory some items in the small brown
bag or the outside pocket of plaintiffs backpack, but
plaintiff has not specified what items were not
inventoried. (Doc. 15, at
139, 148). Schaefer failed to
detail all items in plaintiffs
Jeep, mislabeled plaintiffs KA-BAR knife as a buck knife,
did not inventory water purification tablets and bug
spray in plaintiffs first aid kit, misidentified plaintiffs
rain gear as a raft and did not inventory plaintiffs rain
gear, failed to document unidentified items in plaintiffs
kitchen kit, failed to identify unidentified items in
plaintiffs backpack, misidentified plaintiffs tactical field
pen as a window punch, and did not inventory plaintiffs
water bottle. {Id., at ft 140, 143, 146-47, 149, 151).
Plaintiff s water bottle is clearly visible on Shaefer’s dash
camera video. (Schaefer Video at 19:38-45). During the
inventory search, defendants found plaintiffs Kimber 45
pistol (Schaefer Video, at 19:07:26); and plaintiffs Colt
M4 rifle {id. at 19:19:02), but continued to inventory the
contents of plaintiff s Jeep for another thirty minutes {id,
at 19:09:02-40:00).
2.

Inventory Search

Plaintiffs count three also claims that defendants’
decision to tow and inventory search plaintiffs Jeep
violated plaintiffs Fourth Amendment right to be free
from unreasonable searches. Fleshner, 715 F. App’x at
577 (see also Docs. 15, at 13-16, 25- 26; 83, at ff 1, 5, 16).
In assessing an unreasonable search claim, the starting
point is that all warrantless searches are per se
unreasonable under the Fourth Amendment unless one of
the specific and well-delineated exceptions applies.
Arizona v. Gant, 556 U.S. 332, 338 (2009). An inventory
search of an impounded vehicle is one exception to the
warrant requirement. United States v. Smith, 715 F.3d
1110, 1117 (8th Cir. 2013). In Smith, the Eighth Circuit

33a

set forth the general principles governing inventory
searches in detail
The purpose of an inventory search is to protect
the owner’s property while it remains in police
custody, as well as to protect police against
claims or disputes over lost or stolen
property and from potential dangers. An
inventory search must be reasonable under the
totality of the circumstances and may not be a
ruse for general rummaging in order to discover
incriminating evidence. The reasonableness
requirement is met when an inventory search is
conducted according to standardized police
procedures, which generally remove the
inference that the police have used inventory
searches as a purposeful and general means of
discovering evidence of a crime.
Id. at 1117 (internal quotation marks, alterations, and
citations omitted). “Inventory searches need not be
conducted in a totally mechanical, all or nothing fashion.”
United States v. Garreau, 658 F.3d 854, 858 (8th Cir.
2011) (citation and internal quotation marks omitted).
Thus, an inventory search is conducted according to a
standard policy so long as the search substantially
complies with the policy. See id. at 857-58 (“[Officer’s]
search of the vehicle that [defendant] had been driving
substantially complied with the [inventory search] policy
[Officer’s]alleged minor deviation from the policy was not
sufficient to render the search unlawful.”). Even when an
inventory search does not substantially comply with the
inventory search policy, the search is still objectively
reasonable unless there is “something to suggest the
police raised the inventory-search banner in an after-thefact attempt to justify a simple investigatory search for
incriminating evidence. United States v. Rowland, 341
F.3d 774, 780 (8th Cir. 2003) (citation and internal

34a

quotation marks omitted).
3.

Tiedt and Shores

The county defendants’ motion for summary
judgment on count three only refers to plaintiffs
unlawful traffic stop and does not acknowledge that
portion of plaintiffs count three regarding the legality of
the decisions to tow and inventory search plaintiffs Jeep.
(Docs. 76, at 4; 78, at 6-7). The Eighth Circuit Court of
Appeals made clear “that [plaintiff] adequately alleged
that the decisions to tow and inventory-search his vehicle
were not made in furtherance of a community caretaking
function, pursuant to standard Sheriffs department
practices.” Fleshner, 715 F. App’x at 577). The county
defendants do not provide any argument regarding the
tow and inventory search. The Court, therefore,
interprets the county defendants’ motion as not moving
for summary judgment on count three with respect to the
tow and inventory search claims. Even if the Court
construed the county defendants’ conclusion that they are
“entitled to qualified immunity, both as to Fleshner’s
search and seizure and excessive force claims” (Doc. 78,
at 29) as moving for summary judgment on plaintiffs
inventory search claim, the Court would still deny the
motion because they did not brief the issue. The Court
need not address threadbare arguments without reasoned
analysis. Fort Des Moines Church of Christ, 215
F. Supp.3d at 792.
4.

Schaefer and Dickinson

The state defendants argue that their involvement in
the inventory search did not violate plaintiffs Fourth
Amendment rights because the county defendants made
the decision to impound and tow plaintiffs Jeep, that the
state defendants were required to perform the inventory
search
under
the
Iowa
Highway
Patrol’s
Abandoned/Towed Vehicles policy, and that the state

35a

defendants complied with the terms of the policy in
inventorying the contents of plaintiffs Jeep. (Doc. 74*2, at
9-10, 13).^ There is no dispute that Tiedt, not Schaefer or
Dickinson, made the decision to impound and tow
plaintiffs Jeep. Plaintiff does not dispute that it was
reasonable as a matter of law for Schaefer and Dickinson
to believe that Tiedt’s decision was in accordance with the
Bremer County Sheriffs Office’s policy. (Doc. 83, at ^ 8).
The state defendants argue that they were “required” to
inventory the Jeep once Tiedt decided to have it
impounded. (Doc. 74*2, at 10). The Iowa State Patrol
Abandoned/Towed Vehicles policy provides that officers
“shall” inventory the contents of any impounded vehicle
prior to towing.
state
defendants’
74-3,
at
37-38).
The
(Doc.
interpretation of the abandoned/towed vehicles policy is
consistent with the well-established rule that the term
“shall”
generally
imposes
a
mandatory
duty.
Kingdomware Techs., Inc. v. United States, 136 S. Ct.
1969, 1977, (2016). Plaintiff argues that the county
defendants should not have impounded and towed his
Jeep, and that Dickinson and Schaefer did not fully
document the items in the Jeep during the inventory
search, but plaintiff does not dispute that Dickinson and
Schaefer were required to conduct an inventory search
under the abandoned/towed vehicles policy once Tiedt
6 The state defendants argue that they are entitled to qualified
immunity because they reasonably relied on the county defendants’
decision to tow plaintiffs Jeep. (Doc. 74-2, at 13). The cases cited
address the reasonableness of relying information provided by other
officers, but do not address whether the state defendants are entitled
to qualified immunity. Given that plaintiff does not dispute that it
was reasonable for the state defendants to rely on the county
defendants’ decision (Doc. 83, at f 8), the Court will not separately
address the state defendants’ qualified immunity regarding the
inventory search.

36a

decided to tow the Jeep. (Doc. 83, at tlf 4, 6, 8). The state
defendants’ participation in the inventory search did not
violate plaintiffs Fourth Amendment rights because the
state defendants did not exercise any discretion in
relation to the search. See United States v. Marshall, 986
F.2d 1171, 1174 (8th Cir. 1993) (holding that officer
properly
impounded
defendant’s
vehicle
where
department policy required impoundment of all vehicles
with ten unpaid parking tickets, so the officer did not
exercise any discretion or single out the van to be towed).
Turning to the execution of the inventory search,
plaintiff argues that the inventory search was not
conducted according to the abandoned/towed vehicles
policy because “[a]ll containers and contents of those
containers were not opened and documented as required.”
(Doc. 83, at t 6). In addition to the specific items that
plaintiff alleges were not documented or misidentified,
plaintiff also generally alleges that defendants did not
record the “brand names or full details of each item”
during the inventory. (Doc. 15, at
t 137). The state defendants are entitled to summary
judgment on plaintiffs unlawful search claim because
there is no genuine issue of material fact that they
substantially complied with the abandoned/towed
vehicles policy.
Dickinson is clearly entitled to summary judgment
on this claim because plaintiff has not alleged that
Dickinson deviated from the abandoned/towed vehicles
policy in any way. Plaintiff alleges that Schaefer and
Dickinson completed inventories of the front and rear
seats of the Jeep. (Doc. 15, at tt 118, 122). Plaintiffs
specific allegations regarding deviations from the
abandoned/towed vehicles policy refer only to conduct by
Schaefer and Shores. (Doc. 15, at tt 124-49). Given that
Section 1983 is personal, Frederick, 873 F.3d at 646, and
that plaintiff has not set forth any specific facts to

37a

support a finding that Dickinson deviated from the
abandoned/towed vehicles policy, Dickinson is entitled to
summary judgment.
Turning now to Schaefer, even if each of plaintiffs
factual allegations regarding Schaefer’s conduct during
the inventory search are true, Schaefer is also entitled to
summary judgment on this claim because he
substantially complied with the abandoned/towed
vehicles policy. An inventory search is reasonable under
the Fourth Amendment if the officer substantially
complies with the department’s inventory search policy.
Garreau, 658 F.3d at 857. The substantial compliance
requirement, which permits minor deviations from
procedure, “remove[s] the inference that the police have
used inventory searches as a purposeful and general
means of discovering evidence of a crime.” Smith, 715
F.3d at
1117-18.
Schaefer complied with the
abandoned/towed vehicles policy by opening the
Christmas presents. The policy states “[e]ach container
shall be opened unless the contents of the particular
container are evident from its exterior.” (Doc. 74-3, at 38).
It is apparent from Schaefer’s dash camera video that the
contents of the gifts were not clear from observing the
exterior of the packages, so Schaefer unwrapped the gifts
and inventoried their contents. (Schaefer Video, at
19:04:29-19-07-24). Similarly, Schaefer’s alleged failure to
record the “brand name or full details of every item” (Doc.
15, at 1 137) has no support in the summary judgment
record. The abandoned/towed vehicles policy requires a
“[cjomplete inventory of all property in the vehicle” (Doc.
74*3, at 38), but does not require the brand name or an
extensive description of each item.
Likewise, Schaefer substantially complied with the
abandoned/towed vehicles policy even when he grouped
the items in certain containers rather than identifying
them individually. The use of general, catch-all

38a

descriptions in an inventory search does not render the
search unreasonable. “The concept of an inventory does
not demand the separate itemization of every single
It would serve no
object.
useful purpose to require separate itemization of each
object found, regardless of its value, as a precondition to
accepting a search as an inventory search.” United States
v. Lopez, 547 F.3d 364, 317 (2d Cir. 2008). Schaefer’s
decision to label certain items in groups, such as
plaintiffs kitchen kit or first aid kit, rather than
identifying each individual item in the kit, was
reasonable and substantially complied with the
abandoned/towed vehicles policy.
Similarly, the fact that Schaefer missed some items
in plaintiffs small brown bag or the front pocket of
plaintiffs backpack does not render the inventory search
unreasonable. In Williams v. Walski, No. 12-CV-2954
(SRN/JSM), 2014 WL 4639580, at *7 (D. Minn. Sept. 16,
2014), the court upheld the legality of an inventory
search even though the defendant failed to inventory the
plaintiffs trunk, despite the inventory policy requiring
defendant to search the trunk. The court found the
defendant “substantially complied with the standardized
inventory-search procedure,” and granted summary
judgment in the defendant’s favor on the plaintiffs
Section 1983 claim. Id. Here, Schaefer inventoried at
least some of the contents of plaintiffs brown bag or the
front pocket of his backpack, so he complied with the
inventory policy more substantially than the officer in
Williams. Taking plaintiffs allegations as true, Schaefer’s
minor omissions of some items during the hour-long
inventory search did not violate plaintiffs Fourth
Amendment rights.
The fact that Schaefer did not initially locate
plaintiffs 10mm Colt pistol in the black bag does not
mean that Schaefer failed to substantially comply with

39a

the abandoned/towed vehicle policy. An inventory search
substantially complies with the policy where an item is
accounted for separately from the inventory, or the
inventory started at the scene is completed at a later
time. See Garreau, 658 F.3d at 857-58 (holding
inventory search substantially complied where firearm
was listed on the evidence log rather than the
inventory log)>* United States v. Mayfield\ 161 F.3d 1143
(8th Cir. 1998) (holding inventory search was
reasonable where “the inventory list started at the
scene was not completed as it should have been,
[but] the seized items were listed on an evidence
form later, and there were no other items of value in
the car . . ..”). Plaintiffs 10mm Colt pistol was found
after the initial inventory search and included in the
Bremer County Sheriffs
Record
of
Property
Received. (Doc. 74-3, at 12). The fact that Schaefer
did not initially locate plaintiffs 10mm Colt pistol does
not show that Schaefer failed to substantially comply
with the abandoned/towed vehicles policy.
Also, the fact that Schaefer did not verbally
inventory plaintiffs water bottle is insufficient to support
a finding that Shaefer did not comply with the
abandoned/towed vehicles policy. An inventory search is
not pretextual where the officer does not complete a
specific inventory form, and photographs of items can be
used to supplement other inventory records. United
States v. Garner, 181 F.3d 988, 991 (8th Cir. 1999).
Schaefer performed the inventory search in front of his
dash camera so that the inventory would be recorded on
film, and plaintiffs water bottle is visible in the video,
which is part of the inventory record.
Finally, Schaefer’s misidentification of certain items
is only a minor deviation from the abandoned/towed
vehicles policy, and such minor deviations do not preclude
substantial compliance with an inventory policy. See

40a

Garreau, 658 F.3d at 857—58. For example, an officer
failing to indicate which cell phones were found in a
defendant’s bag and which phones were found on
defendant’s person was only a minor deviation from
procedure and did not invalidate an inventory search.
Smith, 715 F.3d at 1118. Accepting each of plaintiffs
allegations regarding the execution of the inventory
search
as true, as a matter of law Schaefer substantially
complied
with
the
Iowa
Highway
Patrol
Abandoned/Towed Vehicles policy, and the inventory
search was reasonable under the Fourth Amendment.
Further, even if Schaefer and Dickinson did not
substantially comply with the inventory policy, Schaefer
and Dickinson would still be entitled to summary
judgment. If an officer does not substantially comply with
a standard inventory policy the search is still reasonable
under the Fourth Amendment unless there is
“[slomething else” to suggest that the officers “were
engaging in their criminal investigatory function, not
their caretaking function, in searching the defendant’s
vehicle.” United States v. Taylor, 636 F.3d 461, 465 (8th
Cir. 2011). Courts look at several factors to determine if
“something else” is present.
An officer’s admission “that the basis for the traffic
stop, the arrest, the towing of the vehicle, and the
inventory search was the officer’s belief that [defendant]
had narcotics in his vehicle,” constitutes “something else”
to render an inventory search unreasonable. Id. at 465.
Factors such as whether the officers were previously
investigating the driver before the inventory search or
whether the officers abandoned the inventory search once
they found contraband indicate the “something else” to
show that an inventory search is pretextual. United
States v. Morris, No. CR16-4096-LTS, 2017 WL 3495186,
at *10 n. 1 (N.D. Iowa Aug. 15, 2017).

41a

By contrast, an officer cataloging “both the lawful
and incriminating contents of the vehicle,” weighs
against the search being investigatory rather than an
inventory search. United States v. Hall, 497 F.3d 846,
852 (8th Cir. 2007). Further, there is no indication that
an inventory search is pretext for an investigatory search
when the officer does not request consent to search the
vehicle first because such a request “raise [s] the suspicion
that the later inventory search was a last-ditch effort to
obtain incriminating
evidence.” United States v. Perez-Trevino, No. 15-CR2037-LRR, 2016 WL 2752386, at *6 (N.D. Iowa May 10,
2016), affd, 891 F.3d 359 (8th Cir. 2018).
Even if Shaefer or Dickinson failed to substantially
comply with the abandoned/towed vehicles policy, there is
nothing in the record from which a jury could find the
requisite “something else” to determine that the
inventory search was pretext for a general investigatory
search. Dickinson and Schaefer did not make any
discretionary decision to perform the inventory search;
Tiedt decided to tow and impound the vehicle, and
Dickinson and Schaefer were required by the
abandoned/towed vehicles policy to conduct the inventory
search. There is no evidence in the record Dickinson or
Schaefer were
previously investigating plaintiff.
Likewise, although Schaefer found two weapons during
the initial inventory search, he did not abandon the
inventory search when he found potential contraband,
but rather he continued to inventory the lawful contents
of plaintiffs vehicle for another half-hour. Further, there
is no evidence that the inventory search was a last-ditch
effort to perform an investigatory search after plaintiff
refused consent. None of the defendants asked for
plaintiffs consent to search the Jeep, and Shores advised
plaintiff that the defendants did not need his consent to
search his vehicle. Even construing facts in the light most

42a

favorable to plaintiff, there is no evidence to support a
finding of “something else” to turn the inventory search
performed by Schaefer and Dickinson into an
investigatory search. The Court finds that the inventory
search was reasonable under the Fourth Amendment.
The state defendants’ motion for summary judgment is
granted as to count three against Dickinson and Schaefer
to the extent it alleges plaintiff was subjected to an
unreasonable inventory search.
d.

Excessive Force

Plaintiff claims that defendants used excessive forth
during his arrest. (Doc. 15, at
217-218). The county
defendants move for summary judgment on grounds that
there is no genuine issue of material fact that the
county defendants did not violate
plaintiffs rights, that plaintiffs claim fails because he
suffered no substantial injury, and that even if the county
defendants violated plaintiffs rights, they did not violate
a clearly established right. (Doc. 78, at 11-29). The state
defendants move for summary judgment on grounds that
the state defendants are entitled to qualified immunity
because they did not violate a clearly established right.
i.

Findings of Fact

The Court makes the following additional findings of
fact with respect to plaintiffs excessive force claim. The
Court is not required to accept plaintiffs version of the
facts to the extent they are contradicted by the video
evidence in the record. See Ehlers, 846 F.3d at 1010.
After plaintiff stopped in the gas station parking lot,
Tiedt approached plaintiff s Jeep but could not see inside
due to the tinted windows. (Docs. 76-1, at ^6- 71 76-2, at
7-8). Tiedt approached plaintiffs Jeep and plaintiff would
only roll his window down about two inches and would
not provide Tiedt with any identification. (Docs. 76-1, at
THj 6-7; 76-2, at 8). Plaintiff continued to refuse to identify

43a

himself or exit his Jeep for more than twenty minutes.
(Tiedt Video, at 17:53:24-18:15-45). When Shores arrived
on the scene Tiedt informed him about plaintiffs refusal
to immediately pull over and subsequent refusal to
provide any identification. (Doc. 76-2, at 8). When
Dickinson and Schaefer arrived at the scene, Tiedt and
Shores informed them about plaintiffs refusal to pull
over his Jeep for nearly two miles and his subsequent
refusals to roll down his window or provide identification.
(Docs. 74-1, at ^4, 76-2, at 12-13). Schaefer noted that it
was impossible for him to see through the heavy tint on
plaintiffs windows. (Doc. 76-2, at 12). Defendants decided
to arrest plaintiff for interference with official acts before
he exited his Jeep. (Schaefer Video, at 18:31:41-54).
As plaintiff finally started to get out of the Jeep, he
turned back toward the interior of the Jeep, putting his
back to the officers. (Schaefer Video, at 18:33:35).^ As
plaintiff was getting out of his Jeep, Tiedt advised
plaintiff that the officers were going to check him for
weapons. (Tiedt Video, at 18:15:50). Schaefer approached
plaintiff with his taser drawn in his right hand and
grabbed plaintiff with his left hand while telling plaintiff
to get on the ground. (Schaefer Video, at 18:33:36; Doc.
83-2, at 2*4). Plaintiff stepped back from Schaefer as he
approached. (Schaefer Video, at 18:33:36; Doc. 83, at IHf
34, 41). Tiedt grabbed plaintiffs left wrist. (Schaefer
Video, at 18:33:40, Docs. 15, at t 96; 83, at U 35; 83-2, at
4). Plaintiff started to pull away from Schaefer who had
his left hand on plaintiffs right shoulder or neck, and
Shaefer again told plaintiff to get on the ground.
(Schaefer Video, at 18:33:40; Docs. 15, at Tf 96; 83-2, at4).
7 The time stamps on the various dash camera videos do not
match, so the discrepancies in the time stamps do not indicate a
passage of time between events. (Doc. 15, at H 14).

44a

Plaintiff continued to straighten his legs and pull away
from Schaefer while being told repeatedly to get on the
ground. (Schaefer Video, at 18-33-39-41). Tiedt swept
plaintiffs left leg while continuing to grasp plaintiffs left
wrist. {Id., at 18-33-41; Docs. 15, at 96-97).
At approximately the same time, Schaefer employed
a knee strike. (Schaefer Video, at 18:33:42). Plaintiff
alleges that Schaefer’s knee struck him in the groin.
(Docs. 15, at 97; 35, at 14, 83-2, at 5-6). Schaefer asserts
that he applied the knee strike to plaintiffs thigh. (Docs.
74-3, at 7; 76-2, at 12). It is unclear from the video
whether Schaefer’s knee strike hit plaintiffs right thigh
or his groin area, so the Court must assume that
Schaefer’s knee struck plaintiff in the groin. Plaintiff has
not alleged, however, that Schaefer intended to knee
plaintiff in the groin, nor has plaintiff cited to any
evidence in the record to support such a conclusion. Given
the lack of any evidence of intent and Schaefer’s
statements indicating his belief that his knee struck
plaintiffs thigh, the Court finds for purposes of summary
judgment that Schaefer’s knee strike
accidentally connected with plaintiffs groin. Following
the knee strike, Schaefer and Tiedt brought plaintiff to
the ground. (Schaefer Video, at 18:43:42-45). Plaintiffs
characterizations that Tiedt “slamted] [his] body and
head into the ground” (Doc. 15, at
f 97) and that the was “thrown” to the ground (Doc. 83, f
36) are contradicted by the video evidence, and the Court
will not accept them as true. See Ehlers, 846 F.3d at
1010.
Plaintiff put his right arm out to brace himself as he
was taken to the ground by Schaefer and Tiedt, and
plaintiffs right arm was pinned underneath his body
while he was on the ground. (Docs. 15, at
101-02; 83, at
jf 36). Tiedt maintained his hold on plaintiffs left wrist
while plaintiff was on the ground and brought plaintiff s

45a

left arm behind plaintiffs back. (Schaefer Video, at
18:33:43, Docs. 15, at 1 101; 83, at If 35; 83-2, at 7).
Schaefer placed his left hand on plaintiffs neck or right
shoulder and pushed down to restrain plaintiff. (Schaefer
Video 18:33:47). Once plaintiff was on the ground,
Dickinson moved toward plaintiffs right leg with his
flashlight in his right hand. (Schaefer Video, at 18:33:451
Doc. 83*2, at 8). Dickinson used the flashlight to
“firmly str[ike] [plaintiff] three times incrementally
harder in [sic] the right thigh while [plaintiff was] on the
ground.” (Doc. 83-2, at 8).® The video does not show
Dickinson striking plaintiff in the leg because Schaefer’s
body obscures Dickinson’s hands and plaintiffs right leg
from view. (Schaefer Video, at 18:33:45-34:15). At no time
does the video show Dickinson reaching back or lifting
the flashlight up toward his shoulder to deliver the
strikes to plaintiffs right thigh. (Id.) The strikes to
plaintiffs right thigh occurred while plaintiffs right arm
was under his body, and before he was handcuffed. (Docs.
15, at
100-02; 83, at 1f 42).
Shores knelt on the ground to plaintiffs left and
restrained plaintiff by pushing down on plaintiffs head.
(Schaefer Video 18:33:45-34:07; Doc. 83, at 1 31).
Schaefer’s left had forced plaintiffs face into the
pavement (id.), however plaintiffs characterization that
Shores “ground [plaintiff s] head into the pavement” (Doc.
83, at If 3) iscontradicted by the video evidence and the

8 Plaintiff previously alleged that Dickinson may have used a
taser on his right leg. (Docs. 15, at Tf 100! 74-3, at 15). Plaintiff now
claims that he “made no claims that a taser was ever employed
during the attack.” (Doc. 83, at 1f 39). Regardless, plaintiff has
abandoned his allegation that Dickinson used a taser on his right
thigh. (Docs. 83, at Iff 39, 42; 83-2, at 8).

46a

Court will not accept it at true. Shores only had his hand
on plaintiff intermittently for a period of approximately
twenty seconds (Schaefer Video, at 18*33;46-34-06), and it
is clear from the instances when Shores removes his hand
from the back of plaintiffs head that Shores was not
putting significant weight on plaintiffs head because
Shores was able to remove his hand without otherwise
shifting his body weight. (Schaefer Video, at 18-33-55,
34-06). Shores removed his left hand from plaintiffs head
once Tiedt handcuffed plaintiff and the officers patted
plaintiff down and finished removing items from his
person. (Schaefer Video at 18-34-06).
While on the ground plaintiff twice attempted to lift
his upper body to remove his right hand from under his
body. (Docs. 15, at U 1015 83, at ^ 36). In response to
plaintiffs attempts to lift his upper body, Schaefer
pressed his knee into plaintiffs back and right shoulder
to pin plaintiff to the ground. (Schaefer Video, at
18-33-50-545 Doc. 15, at f 101). One of the instances of
Schaefer pressing his knee into plaintiffs back caused
plaintiffs head to come off the ground and the
combination of Schaefer’s left knee and left hand, and
Shores left hand, forced plaintiffs face back onto the
pavement. (Schaefer Video, at 18:33-535 Doc. 83-2, at 10).
Although it cannot be seen on the video, plaintiff states
that he eventually removed his right hand from under his
body. (Doc. 15, at U 102). After plaintiffs right hand was
placed behind his back, Tiedt handcuffed plaintiff. (Docs.
15, at 1025 76-2, at 66). It is unclear precisely when Tiedt
completed handcuffing plaintiff, but Schaefer continued
to press his right knee into plaintiffs back and right
shoulder for approximately eighteen seconds while the
officers patted plaintiff down, removed items from
plaintiffs person, and attempted to keep plaintiffs dog
out of the officers’ way. (Schaefer Video, at 18:34:20*385
Docs. 15, at Tf 1035 83*2, at 11). Schaefer then removed his
knee from plaintiff s back and the officers assisted

47a

plaintiff to his feet. (Schaefer Video, at 18-34-40). Plaintiff
asked Schaefer to get Schaefer’s knee off of plaintiffs
shoulder (Schaefer Video, at 18-34-22; Doc. 15, at
U 104), but did not mention the alleged strikes to his
right leg, or any pain or injury to his hand, face, or neck.
(Doc. 76-1, at If 26).
Once plaintiff was on his feet, he pulled away from
Tiedt and Schaefer and used his shoulder to close the
locked door of his Jeep. (Schaefer Video, at 18-34- 48;
Docs. 15, at Tf 107; 83-2, at 12). Tiedt and Schaefer placed
plaintiff in the back of Tiedt’s patrol car. (Dickinson
Video, at 18-36-13; Doc. 74-1, at f 13). While in the back
of Tiedt’s patrol car, plaintiff slipped his cuffed hands
from behind his back to the front of his body. (Doc. 74-1,
at IHf 13-14). Tiedt removed plaintiff from the back of his
patrol car to locate the keys to plaintiffs Jeep. (Dickinson
Video, at 18:37-19; Doc. 74-1, at 1 14). Schaefer came to
assist in the search, pushed plaintiff against Tiedt’s
patrol car, and grabbed plaintiffs right arm with enough
force to leave small bruises while searching him.
(Dickinson Video, at 18:37:56-39:19; Docs. 15, at 114;
74-1, at t 14; 83, at U
11).
Plaintiff claimed his arrest caused him bruising and
scraping on his right cheek and right hand, small bruises
on the inside of his right arm, tenderness on the outside
of his upper right thigh, and soreness in his back.
(Doc.76-2, at 54). Plaintiff also asserts that Schaefer’s
pulling at his head and neck when attempting to bring
him to the ground caused intermittent neck pain from a
prior car accident to occur more frequently. {Id., at 49-50,
54). Plaintiff has produced pictures of the scrapes to his
hand and face, and of the bruises on his arm, but
provided no visual evidence of any of his other alleged
injuries. (Doc. 83-1). Plaintiff never sought medical
attention for any of his injuries. (Doc. 74-3, at 16).

48a

2.

Substantial Injury

The county defendants argue that a plaintiff must
show “actual injury” to support an excessive force claim.
(Doc. 78, at 22). There is no requirement that a plaintiff
suffer more than a de minimis injury to support an
excessive force claim, but the extent of an arrestee’s
injuries is relevant to determine whether the arresting
officer used more than de minimis force, which is
insufficient to support an excessive force claim.
Chambers
v. Pennycook, 641 F.3d 898, 906 (8th Cir. 2011). The
county defendants cite Chambers for the proposition that
“Wo prove that the force applied was excessive in that
context, therefore, a plaintiff must demonstrate
something more.” (Doc. 78, at 23) (quoting Chambers,Q41
F.3d, at 907). The county defendants’ argument ignores
the surrounding language in Chambers. The county
defendants’ quote comes from a paragraph that explicitly
applies only to cases regarding “irritation, minor injury,
or discomfort where the handcuffs were applied.”
Chambers, 641 F.3d, at 907. The sentence following the
quoted language states “[a]s a general proposition,
however, there is no uniform requirement that a plaintiff
show more than de minimis injury to establish an
application of excessive force.” Given that plaintiff does
not make any claim regarding an injury to his wrist from
where Tiedt applied the handcuffs, the county
defendants’ argument fails as a matter of law.
3.

Qualified Immunity

The county defendants and the state defendants each
argue that they are entitled to qualified immunity on
plaintiffs excessive force claim. (Docs. 74-2, at 14*19; 78,
at 24- 29). Qualified immunity serves to “protect! ]
actions in the hazy border between excessive and
acceptable force.” Mullenix v. Luna, 136 S. Ct. 305, 312
(2015) (citations and internal quotation marks omitted).

49a

Qualified immunity protects an officer when the officer
makes a reasonable mistake as to what force the law
regards as reasonable under the circumstances. Saucier
v. Katz, 533 U.S. 194, 205 (2001), overruled on other
grounds by Pearson, 555 U.S. at 236. “The issue of
whether summary judgment on grounds of qualified
immunity is appropriate from a particular set of facts is a
question of law.” Lambert v. City of Dumas, 187 F.3d
931, 935 (8th Cir. 1999).
a.

Violation ofa Constitutional Right

The first prong of the qualified immunity analysis is
whether the facts established by the summary judgment
record make out a violation of plaintiffs constitutional
rights. Pearson, 555 U.S. at 232. Claims of excessive force
in the course of an arrest are analyzed under the Fourth
Amendment’s “objective reasonableness”
standard.
Graham, 490 U.S. at 388. “It is well-established that ‘the
right to make an arrest or investigatory stop necessarily
carries with it the right to use some degree of physical
coercion or threat thereof to effect it.’” Chambers, 641
F.3d at 905 (quoting Graham, 490 U.S. at 396). The
Fourth Amendment prohibits the use of unreasonable
force, but “reasonable applications of force may well cause
pain or minor injuries with some frequency.” Id.
In assessing an unreasonable force claim, a court
must decide whether the officer’s use of force was
objectively reasonable in light of the circumstances facing
the officer at the time, and the court does not consider the
officer’s subjective intentions or motivations. Graham,
490 U.S. at 397. The relevant circumstances include “the
severity of the crime at issue, whether the suspect poses
an immediate threat to the safety of the officers or others,
and whether he is actively resisting arrest or attempting
to evade arrest by flight.” Id. at 397. The Supreme Court
has noted that a court’s excessive force inquiry must
account for the realities that officers face in the moment:

50a

The “reasonableness” of a particular use of force
must be judged from the perspective of a
reasonable officer on the scene, rather than with
the 20/20 vision of hindsight. With respect to
a claim of excessive force, the
same standard of reasonableness at the moment
applies^ [n]ot every push or shove, even if it may
later seem unnecessary in the peace of a judge’s
chambers violates the Fourth Amendment. The
calculus of reasonableness must embody
allowance for the fact that police officers are
often forced to
make split-second judgments—in circumstances
that are tense, uncertain, and rapidly evolving—
about the amount of force that is necessary in a
particular situation.
Id. at 396-97 (internal quotation marks and citations
omitted). If an officer has an objectively reasonable
basis for believing that an arrestee has access to a
weapon or is attempting to flee the officer need not
“wait and see” what the arrestee is going to do before
taking action.” Myers v. Becker Cty., 833 F. Supp.
1424, 1432 (D. Minn. 1993). Under this standard the
arrestee’s subjective intentions are also irrelevant, and
the focus of the analysis is on how a reasonable officer
would interpret the arrestee’s actions. See Ehlers, 846
F.3d at 1011 (holding that officer was justified in using a
taser where officer “reasonably could have interpreted
[the arrestee’s] behavior of continuing to lay on his
hands and refusing to comply with instructions as
resistance . . . regardless of whether [the arrestee]
actually intended to resist”); Carpenter v. Gage, 686
F.3d 644, 650 (8th Cir. 2012) (“Even if [the arrestee’s]
motive was innocent, the deputies on the scene
reasonably could have interpreted [the arrestee’s]
actions as resistance and responded with an amount of

51a

force that was reasonable to effect the arrest.”);
McManemy v. Tierney No. C17-3020-LTS, 2018 WL
5269819, at *8 (N.D. Iowa Oct. 23, 2018) (“[The
arrestee’s] perceived resistance was sufficient to justify
[the officer] in tasing him twice before he was
handcuffed.”).
Under the law of the case doctrine, the Court finds
that there is a genuine issue of material fact as to
whether the defendants used unreasonable force in
arresting plaintiff. The Court previously granted
summary judgment on grounds that there was no
genuine issue of material fact that the force used by the
officers was reasonable. Fleshner v. Tiedt, No. 15-CV2033-LRR, 2016 WL 5329611, at *6 (N.D. Iowa
Sept. 21,
2016), affdin part, revdin part and remanded sub nom.,
Fleshner, 715 F. App’x 575 (8th Cir. 2018). The Court did
not rule on the issue of qualified immunity. Id., at *11.
On appeal, the Eighth Circuit held that “there remains a
genuine issue of material fact as
to whether the force used in arresting Fleshner was
objectively reasonable.” Fleshner, 715 F. App’x at 577.
Given that the Eighth Circuit did not specifically state
which defendant(s) or which act(s) violated plaintiffs
Fourth Amendment rights, the Court is bound by the
Eight Circuit’s implied determination that there is a
genuine issue of material fact as to whether the force
used by each of the defendants in each of the ways
alleged by plaintiff was unreasonable. The Court will
assume that plaintiff has made out a triable claim for
violation of his Fourth Amendment rights as to each of
the defendants, and the Court’s qualified immunity
analysis hinges on whether the defendants’ conduct
violated plaintiff s clearly established rights.
b.

Clearly Established Rights

52a

Having established that, for purposes of summary
judgment, plaintiff has established a genuine issue of fact
as to whether defendants violated his Fourth Amendment
rights, the Court must determine whether plaintiffs
rights were clearly established at the time of his arrest.
A right can be clearly established without “a case
directly on point, but existing precedent must have placed
the statutory or constitutional question beyond debate.”
AJ- Kidd, 563 U.S. at 741. The Supreme Court has
repeatedly cautioned lower courts “not to define clearly
established law at a high level of generality.” Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018) (quoting City & Cty.
ofSan Francisco, Calif, v. Sheehan, 135S. Ct. 1765, 1776
(2015)). Factually specific precedent is very useful in
excessive force cases to determine if the law is clearly
established[s] pecificity is especially important in the Fourth
Amendment context, where the Court has
recognized that it is sometimes difficult for an
officer to determine how the relevant legal
doctrine, here excessive force, will apply to the
factual situation the officer confronts. Use of
excessive force is an area of the law in which the
result depends very much on the facts of each
case and thus police officers are entitled to
qualified immunity unless existing precedent
squarely governs the specific facts at issue.
Precedent involving similar facts can help move
a case beyond the otherwise hazy border
between excessive and acceptable force and
thereby provide an officer notice that a specific
use of force is unlawful.
Id. at 1152—53 (alteration in original) (internal citations
and quotation marks omitted). This Court has likewise
noted “[factually analogous cases are highly relevant to
the qualified immunity inquiry” in the Fourth

53a

Amendment context. Ogden v. Johnson, No. C00-0034,
2002 WL 32172301, at *4 (N.D. Iowa Sept. 5, 2002); see
also Tauke v. Stine, No. C95-1010, 1996 WL 33423375, at
*5 (N.D. Iowa Oct. 4, 1996), affd, 120 F.3d 1363 (8th Cir.
1997). “Failing to identify a case where an officer acting
under similar circumstances was held to have violated
the Fourth Amendment” is often fatal to a claim outside
of obvious cases.” Moore-Jones v. Quick, 909 F.3d 983,
985 (8th Cir. 2018) (alterations omitted) (quoting White
v. Pauly, 137 S. Ct. 548, 552 (2017)).
Courts look to how an arrestee’s conduct could have
been reasonably interpreted by the officer to determine if
the law was clearly established as to the force the officer
was authorized to use. See Ehlers, 846 F3d at 1012.
“[T]here can be the rare obvious case where the
unlawfulness of the officer’s conduct is sufficiently clear
even though existing precedent does not address similar
circumstances. But a body of relevant case law is
usually necessary to clearly establish the answer with
respect to” the Fourth Amendment. Wesby, 138 S. Ct.
at 590 (internal citations and quotation marks omitted).
The Court, having reviewed the record, including the
multiple dash camera videos of the incident, finds that
this is not one of the “rare obvious cases” when existing
precedent is unnecessary to determine whether
defendants’ actions violated plaintiffs clearly established
rights. Plaintiffs resistance (Doc. 83) cites no case law to
establish that binding precedent or a robust consensus of
persuasive authority put defendants on notice that they
could not use the force at issue in this case. Defendants
are entitled to qualified immunity on plaintiffs excessive
force claims because plaintiff has not met his burden to
show that defendants violated plaintiffs clearly
established rights. Even if plaintiff offered case law in
support of his resistance, the Court would still find that
defendants did not violate plaintiff s clearly established

54a

rights. The Court will analyze each officer’s qualified
immunity claim separately because qualified immunity is
personal to each defendant. Marsh, 902 F.3d at 754.
L

Tiedt

As detailed in the Court’s findings of facts, after
plaintiff got out of his Jeep, Tiedt grabbed plaintiffs left
wrist, employed a leg sweep of plaintiffs left leg, pulled
plaintiffs left arm behind his back, and handcuffed
plaintiff. Plaintiff argues that he did not pose a threat to
defendants. (Doc. 83, at 32). Whether an arrestee posed
a threat to the safety of the officers is an objective
determination based on the information available to the
officers at the time of the arrest. See Wertish v. Krueger,
433 F.3d 1062, 1067 (8th Cir. 2006) (holding that it was
objectively reasonable for defendants to assume they were
dealing with belligerent drunk or fleeing criminal when
arrestee’s failure to immediately pull over or exit his
vehicle was in fact due to diabetic shock). Thus, plaintiffs
subjective explanations for not immediately pulling over
after Tiedt activated his emergency lights (Doc. 83, at ^
19), or for repeatedly refusing to identify himself (Doc. 15,
at Ulf 41, 53, 75), are irrelevant to whether it was
objectively reasonable for defendants to believe that
plaintiff posed a risk of harm to defendants.
Based on the undisputed facts facing Tiedt and the
other defendants it was objectively reasonable to believe
that plaintiff posed a potential risk to defendants’ safety.
“The Supreme Court has frequently noted the inherent
danger traffic stops pose to police officers.” United States
v. Menard, 95 F.3d 9, 11 (8th Cir. 1996). These dangers
are particularly apparent when the stop takes place at
night and the arrestee is near an unsecured vehicle. See
Womack v. Bradshaw, 49 F. Supp. 3d 624, 635 (W.D. Mo.
2014), affd, 610 F. App’x 582 (8th Cir. 2015). Tiedt
stopped plaintiff at approximately 6-00 p.m., and
plaintiffs dark tinted windows, combined with plaintiffs

55a

refusal to roll his window down more than approximately
two inches, limited Tiedt and the other officers’ ability to
see into the Jeep. Plaintiff repeatedly refused to identify
himself, which prevented Tiedt and the other officers
from determining if plaintiff had any active warrants or
other violent criminal history. When plaintiff eventually
opened his driver’s side door, he turned back toward the
inside of the unsecured Jeep as he exited. Under these
circumstances, it was objectively reasonable for Tiedt and
the other defendants to believe that plaintiff posed a
threat to their safety.
In light of these circumstances, Tiedt’s conduct in
grabbing plaintiffs wrist when plaintiff exited his Jeep
did not violate clearly established law. The officers had
already decided to arrest plaintiff for interference with
official acts, and Tiedt grabbing plaintiffs wrist did not
violate clearly established law given that all arrests
involve some degree of physical coercion. Chambers, 641
F.3d at 9055 see also Wertish, 433 F.3d at 1067
(“Handcuffing inevitably involves some use of force.”). In
Wertish, following a short pursuit and the driver’s refusal
to exit the vehicle when ordered to do so, the officer
pulled the driver from the vehicle, took him to the
ground, forcibly pulled the driver’s hand behind his back,
and pushed the driver against his vehicle, causing minor
scrapes and bruises and reaggravating the arrestee’s
preexisting shoulder condition. 433 F.3d, at 1067. The
court found that the officer’s actions, in light of the
objective circumstances facing the officer, did not
constitute excessive force. Id.
Similarly, in Woodruff v. City of Trussville, 434 F.
App’x 852, 854 (llth Cir. 2011), an officer received
reports of a reckless driver, and the driver did not
immediately pull over when the officer activated his
emergency lights. The driver pulled into a parking lot,
and the officer arrested the driver by punching him in the

56a

face, forcefully removing the driver from his car, and
slamming the driver on the ground. Id. at 855. The court
found that the officer’s use of force was only de
minimis, and affirmed summary judgment in the officer’s
favor. Id. Given that Tiedt merely grabbed plaintiffs
wrist when plaintiff exited his Jeep, took him to the
ground, and handcuffed plaintiff, Tiedt did not violate
plaintiffs clearly established rights.
Tiedt’s use of a leg sweep to bring plaintiff to the
ground likewise did not violate plaintiffs clearly
established rights. In addition to the initial officer safety
concerns, plaintiffs actions after Tiedt grabbed his wrist
(stepping back from Schaefer as he approached while
Tiedt advised plaintiff that the officers were going to
search him for weapons, straightening his legs to resist
being taken to the ground by Schaefer) support a
reasonable belief that plaintiff was resisting arrest.
Plaintiff offers his subjective motivation for stepping
away from Schaefer as evidence that he was not actively
resisting arrest. (Doc. 83, at ][ 34). Again, plaintiffs
subjective reasons for his actions are irrelevant to the
Court’s determination of whether the officers could
reasonably have perceived plaintiffs actions as
resistance. See Mendez v. City of Scottsdale, No. CV-12285-PHX-SMM, 2014 WL 2569137, at *4 (D. Ariz. June 9,
2014) (noting in response to arrestee’s explanation that
stiffening his arm was reflexive, not resisting arrest, that
“[pjlaintiffs subjective intention is irrelevant”); see also
Ehlers, 846 F.3d at 10111 Carpenter, 686 F.3d at 6501
McManemy, 2018 WL 5269819 at *8. Defendants, inlight
of the objective facts before them, could reasonably have
interpreted plaintiffs actions as resistance.
Even in cases of little or no resistance, or only
passive resistance, it is not unreasonable for officers to
take an arrestee to the ground with force. See Blazek v.
City of Iowa City, 761 F.3d 920, 924 n.2 (8th Cir. 2014)

57a

(citations omitted), Wertish, 433 F.3d at 1067; see also
Kennedy-Bey v. Metro. Council, No. 15-CV-2627
(DWF/LIB), 2016 WL 7868701, at *14 (D. Minn.
Dec. 6, 2016), adopted, No. CV 15-2627 (DWF/LIB),
2017 WL 242603 (D. Minn. Jan. 19, 2017), affd, 717 F.
App’x 648 (8th Cir. 2018)^ (“[C]ourts have rejected
excessive forces claims similar to the claim in the present
case when officers have thrown arrestees to the ground in
an effort to gain control of the person, even in cases when
the person was only ‘passively resisting.’” (citation
omitted)). Defendants could reasonably have interpreted
plaintiff s actions, including stepping away from Schaefer
and resisting Schaefer’s attempts to bring plaintiff to the
ground, as active resistance to defendants’ attempts to
arrest plaintiff. See Womack, 49 F. Supp. 3d at 632
(holding plaintiff actively resisted arrest and officer did
not use excessive force when plaintiff was handcuffed for
a nonviolent misdemeanor, plaintiff was passively
disobedient then pulled away from officer and kicked
squad car’s door closed, and in doing so struck the officer,
in response the officer spun the plaintiff to the ground
and her face struck the road). Also, leg sweeps under
similar circumstances do not constitute excessive force.
See Gunter v. Twp. of Lumberton, 535 F. App’x 144, 14748 (3d Cir. 2013) (“Appellant argues that the police
officer’s use of a sweeping kick to force [the arrestee] to
the ground constituted excessive force. We disagree. The
undisputed facts indicate [the arrestee] made wild arm
motions, spoke angrily, and refused to comply with the
9 Cases decided after the arrest at issue cannot constitute clearly
established law because such cases cannot give fair notice to the
officer at the time of the arrest. Plumhoff v. Rickard, 572 U.S. 765,
779 (2014). Logic dictates, however, that cases decided after the
arrest at issue, finding that similar conduct did not violate clearly
established law, are relevant to showing that the law was not clearly
established at an earlier time.

58a

officers’ efforts to place him in handcuffs to effectuate the
arrest.”); Marshall v. West, 559 F. Supp. 2d 1224, 1244
(M.D. Ala. 2008) (holding that officer’s use of a foot sweep
to throw plaintiff face-first onto the ground, even though
the plaintiff did not pose a threat, was reasonable when
the plaintiff refused the officer’s commands to get on the
ground). Given the circumstances Tiedt faced, it was not
beyond debate that Tiedt’s use of a leg sweep to bring
plaintiff to the ground was unlawful.
Once plaintiff was on the ground, Tiedt’s “wrenching”
(Doc. 83, at
3, 36) of plaintiffs left arm behind
plaintiffs back did not violate plaintiffs clearly
established rights. In Blazek, the Eighth Circuit held
that, when the plaintiff was passively resisting, an officer
grabbing the plaintiffs arm and twisting it upward and
behind plaintiffs back was “a relatively common and
ordinarily accepted non-excessive way to detain an
arrestee.” 761 F.3d at 924 (quoting Rodriguez v. Farrell,
280 F.3d 1341, 1351 (llth Cir. 2002)). Plaintiff has not
alleged any injuries to his left shoulder or wrists as a
result of Tiedt pulling plaintiffs left arm behind his body
or handcuffing plaintiff. (Doc. 74- 3, at 15). Given that
plaintiff suffered no injury relating to Tiedt’s actions in
handcuffing plaintiff, it would not have been clear to
Tiedt that the force he used was any more than de
minimis, which is necessary to effect any lawful seizure.
See Chambers, 641 F.3d at 906. Plaintiff has not met his
burden to show that the rights Tiedt violated were clearly
established, and the Court finds that there is no binding
authority “or robust consensus of cases of persuasive
authority,” De La Rosa, 852 F.3d at 745, which would
have put Tiedt on notice that his conduct during
plaintiffs arrest were unlawful. Thus, Tiedt is entitled to
qualified immunity on plaintiffs excessive force claim,
and the county defendants’ motion for summary
judgment is granted as to count two against Tiedt.

59a

a.

Shores

Shores’ only involvement in plaintiffs arrest was
when Shores “forced [plaintiffs] head and face into the
pavement” (Doc. 15, at ^ 100) with his left hand while
defendants were arresting plaintiff (Doc. 83, at If 42),
which occurred for approximately twenty seconds. When
Shores applied the force to the back of plaintiffs head,
plaintiffs right arm was pinned underneath his body, and
plaintiff twice attempted to lift his upper body to free his
right hand so defendants could handcuff plaintiff. Shores
and the other defendants could reasonably have
perceived plaintiffs inability to present his right hand
for cuffing and attempts to lift his upper body as
resistance. See e.g. Wertish, 433 F.3d at 1066-67; Ehlers,
846 F.3d at 1011; McManemy, 2018 WL 5269819 at *8.
Clearly established law in the Eighth Circuit
authorizes an officer apply force to the back side of the
arrestee’s body to control and handcuff the arrestee. See
White v. Jackson, 865 F.3d 1064, 1080 (8th Cir. 2017)
(holding, when plaintiff was not resisting arrest, “it was
not an unreasonable use of force to push [plaintiff] to the
ground and place a knee on his back” because such force
was inherent in the right to make an arrest). This Court
addressed similar allegations in McManemy, 2018 WL
5269819. The plaintiff led officers on a twelve-minutelong chase. Id. at *3. When the chase came to an end, the
plaintiff voluntarily exited his vehicle and laid spread
eagle on the ground. Id. The officers attempted to cuff the
plaintiff but could not get his right arm behind his back
due to plaintiffs prior shoulder injury. Id. at *4. The
Court noted that, from the officer’s point of view, the
plaintiffs inability to bring his arms together behind his
back could reasonably be interpreted as active,
intentional resistance. Id. at *8. The Court found that
while the plaintiff was face down on the ground one of the
officers placed his knee on the plaintiffs face with enough

60a

force to cause a black eye. Id. at *6. The Court held that
the officer’s use of his knee on the plaintiffs face to get
control of the plaintiff did not violate clearly established
rights.
While Tiedt’s pursuit of plaintiff was far less
dramatic than the pursuit in McManemy; the other facts
are very similar. Even if plaintiff was not actively
resisting arrest once he was on the ground, defendants
could reasonably have construed plaintiffs inability to
remove his right hand from under his body as active
resistance. Instead of using his knee, Shores used his left
hand on plaintiffs head to help maintain control of
plaintiff while Tiedt worked to handcuff plaintiff. The
extent of plaintiffs injury, small scrapes to his right
cheek, is similar to the black eye suffered by the plaintiff
in McManemy, which is indicative of a similar quantum
of force. Given the similarities between the cases, Shores
would not have understood that he violated plaintiffs
clearly established rights by engaging in essentially the
same conduct as the defendant in McManemy.
In another similar case, an officer responded to a call
regarding a dispute over grass clippings, and repeatedly
ordered the plaintiff to wait by the squad car while his
supervisor drove to the scene. Heitzman v. Engelstad, No.
12-CV-2274 (MJD/LIB), 2015 WL 506279, at *3 (D. Minn.
Feb. 6, 2015). When the plaintiff refused to stay by the
squad car, the officer grabbed the plaintiff by her arm,
pushed her over the hood with enough force to cause the
plaintiff to hit her face on the hood, leaving a bruise on
her face. Id., at * 6. The court found that the officer was
entitled to qualified immunity because no case law
showed that it was beyond debate that the officer’s
conduct was unlawful, and the court noted that the
officer’s tactics were “a relatively common and ordinarily
accepted non-excessive way to detain an arrestee.” Id.
(quoting Blazek, 761 F.3d at 923).

61a

Like the plaintiff in Heitzman, plaintiff here was not
suspected to have committed a felony, or even violent
misdemeanors at the point the arrest began. Plaintiffs
actions in this case, stepping away from Schaefer,
refusing orders to get on the ground, and resisting
Shaefer’s attempts to bring plaintiff to the ground, are
similar to the plaintiffs actions in Heitzman. The force
used by Shores, pushing plaintiffs face into the ground
while Tiedt handcuffed plaintiff, was not clearly unlawful
given that the situation here involved the inherent
dangers associated with traffic stops, especially because
plaintiff did not immediately pull over, refused to identify
himself, and the officers had limited vision into plaintiffs
unsecured vehicle.
Case law from other circuits likewise establishes that
officers may force an arrestee’s head down as part of
making an arrest. The Seventh Circuit Court of Appeals
found that an officer did not use unreasonable force when
the officer pushed an arrestee to the ground and pressed
his face against the road, causing “excruciating pain”
during the arrest, when the arrestee’s only act of
resistance was disobeying the officer’s order to look
straight ahead and not to turn around. Cherry v.
Washington Cty., Wis., 526 F. App’x 683, 686-88 (7th Cir.
2013). The Eleventh Circuit Court of Appeals held that
an officer pushing a non-resisting arrestee’s head into the
side of a van with enough force to bruise the arrestee’s
forehead was a de minimis use of force, insufficient to
support an excessive force claim. Nolin v. Isbell, 207 F.3d
1253, 1255-1258 (llth Cir. 2000). In short, plaintiff has
not pointed to any analogous cases to establish that
Shores’ actions violated plaintiffs clearly established
rights, and based on the controlling case law and the
consensus of persuasive authority, a reasonable officer in
Shores’ position would not have known that his actions
violated plaintiffs rights. Thus, Shores is entitled to
qualified immunity on plaintiffs excessive force claim,

62a

and the county defendants’ motion for summary
judgment is granted as to count two against Shores.
in.

Schaefer

Plaintiff alleges that Schaefer used excessive force
both during and after plaintiffs arrest on December 24,
2014. Plaintiff alleges that during his arrest Schaefer
used excessive force by pointing his taser at plaintiff,
grabbing plaintiff by the head and neck and attempting
to bring plaintiff to the ground, kneeing plaintiff in the
groin, and pressing his knee into plaintiffs back and
shoulder while plaintiff was on the ground. (Doc. 15, at
It 96—97, 100-101, 103). Plaintiff also alleges that
Schaefer grabbed plaintiffs right arm with enough force
to leave bruises and pushed plaintiff against Tiedt’s
patrol car while Schaefer was searching plaintiffs person
for the keys to plaintiffs Jeep. (Doc. 15, at Tf 114).
Schaefer’s drawing of his taser and pointing it at
plaintiff did not violate plaintiffs clearly established
rights. “The act of drawing and pointing a gun charged
with electricity can hardly give rise to a claim of
excessive force.” Policky v. City of Seward, Neb., 433
F. Supp. 2d 1013, 1025 (D. Neb. 2006). The Eighth
Circuit has not clearly established that drawing and
pointing a taser without discharging it constitutes
excessive force. Brown v. Boone Cty., No. 5-13-CV-03065,
2014 WL 4405433, at *4 (W.D. Ark. Sept. 5, 2014); see
also Clark v. Rusk Police Dep% No. Civil Action NO.
6‘07cv340, 2008 WL 4179322, at *3 (E.D. Tex. Sept. 8,
2008) (holding officer’s threat to use taser was not
unreasonable when plaintiff repeatedly refused to exit his
vehicle and officers were forced to break plaintiffs
window to remove him from the vehicle). In light of the
case law at the time of plaintiffs arrest, it was not
beyond debate that Schaefer pointing his taser at
plaintiff was unreasonable given that plaintiff did not
pull over immediately and refused to identify himself or

63a

get out of his Jeep. Thus, Schaefer is entitled to qualified
immunity for his drawing his taser and pointing it at
plaintiff without discharging it.
Schaefer did not violate plaintiffs clearly established
rights by grabbing plaintiff by plaintiffs head and neck to
bring plaintiff to the ground. Plaintiff has not cited to any
clearly established case law that would have put a
reasonable officer in Schaefer’s position on notice that it
was unreasonable to grab plaintiff by the head and neck
and attempt to bring him to the ground under the
circumstances. As found above, Tiedt did not violate
plaintiffs clearly established rights when he grabbed
plaintiffs wrist and assisted in taking plaintiff to the
ground. For the same reasons, Schaefer likewise did not
violate plaintiffs clearly established rights by grabbing
him by the head and neck and attempting to bring
plaintiff to the ground. See Blazek, 761 F.3d at 924-255
Gunter; 535 F. App’x at 147-485 Woodruff, 434 F. App’x
at 8555 Wertish, 433 F.3d at 10675 Kennedy-Bey; 2016
WL 7868701 at *145 Womack, 49 F. Supp. 3d at 6325
Marshall, 559 F. Supp. 2d at 1244.
Schaefer also did not violate plaintiffs clearly
established rights by using a knee strike that
accidentally made contact with plaintiffs groin. At the
time of plaintiffs arrest, clearly established law did not
“clearly proscribe delivering knee strikes to non-violent
suspects who are actively resisting arrest.” Stanfield v.
City ofLima, 244 F. Supp. 3d 638, 653 (N.D. Ohio 2017),
affd, 727 F. App’x 841 (6th Cir. 2018)5 see also Rudlaff v.
Gillispie, 791 F.3d 638, 643 (6th Cir. 2015) (holding,
during arrest for driving with a suspended license, that
use of a taser and knee strike against suspect was
objectively reasonable when the suspect jerked his arm in
the officer’s direction twice, balled up, and refused to
comply with the officer’s verbal commands). Indeed, one
court has found that the use of a knee strike to the thigh

64a

was not unreasonable even when the arrestee’s only
crimes related to disobeying an officer and riding his bike
on a closed road, and the arrestee’s only resistance was
“stiffening his arm and moving away” from the officer.
Mendez, 2014 WL 2569137, at *4; see also Brown v.
Rinehart, 325 F. App’x 47, 51 (3d Cir. 2009) (holding that
knee strike to plaintiffs thigh did not violate plaintiffs
Fourth Amendment rights when plaintiff was acting in a
disorderly manner and the officer only used force after
the plaintiff “continued to resist verbal warnings and lay
on his hands to prevent being handcuffed or otherwise
controlled during his arrest”).
The cases cited above address the use of knee strikes
to the thigh or other areas of the body, but do not directly
address knee strikes to the groin. The Eighth Circuit has
pointed out that the qualified immunity analysis focuses
on the techniques used by the officers, not their ultimate
result. Blazek, 761 F.3d at 924-25; see also Chambers,
641 F.3d at 906 (“The degree of injury is certainly
relevant insofar as it tends to show the amount and type
of force used.”). Although the Court accepts as true
plaintiffs claim that Schaefer’s knee strike hit plaintiffs
groin, given the case law authorizing the use of a knee
strike to the thigh under similar circumstances, it was
not sufficiently clear to Schaefer that the use of the knee
strike would violate plaintiff s Fourth Amendment Rights
if it accidentally hit plaintiffs groin rather than his
thigh.
Also, the limited number of cases decided before
plaintiffs arrest when strikes to the groin were found to
be unreasonable are factually distinguishable, and thus
did not put the constitutionality of Schaefer’s actions
beyond debate. In Johnson v. D.C., 528 F.3d 969 (D.C.
Cir. 2008), the court found that the officer’s strikes to the
arrestee’s groin were unreasonable. The facts in Johnson,
however, are distinguishable in two significant ways.

65a

First, the officer in Johnson did not deliver a single strike
to the arrestee’s groin, he “repeatedly kicked and
stomped [the arrestee’s] groin and buttocks.” Id. at 972.
Second, in Johnson the arrestee was not actively resisting
arrest, he was laying on his stomach with his arms and
legs spread. Id. at 975. Similarly, in Lewis v. Downs, 774
F.2d 711, 714 (6th Cir. 1985), the court, analyzing the
plaintiffs excessive force claim under the Fourteenth
Amendment’s Due Process Clause, found that the officers
used excessive force in striking a handcuffed plaintiff in
the head with a nightstick and kicking him in the groin
while he was being restrained by another person.
Johnson and Lewis did not clearly establish that
Schaefer’s knee strike violated plaintiffs constitutional
rights because Schaefer employed only a single strike to
plaintiff that happened to strike plaintiff s groin, Schaefer
could reasonably have believed that plaintiff was actively
resisting, and plaintiff was not restrained at the time.
Thus, Schaefer is entitled to qualified immunity on
plaintiffs claims regarding Schaefer’s knee strike to
plaintiffs groin.
Schaefer is likewise entitled to qualified immunity
from plaintiffs allegations that Schaefer pressed his knee
into plaintiffs back while Tiedt was attempting to
handcuff plaintiff, that Schaefer pressed his knee into
plaintiff s back when plaintiff tried to lift his torso to free
his right hand, and that Schaefer continued to press his
knee into plaintiff s shoulder after plaintiff was detained.
(Doc. 15, at t1f 100-01, 103-04). Clearly established law
at the time of plaintiffs arrest dictated that the use of a
knee on back as part of an arrest, even in cases when the
underlying crimes were not serious, did not violate the
arrestee’s rights. See White, 865 F.3d at 1080 (8th Cir.
2017) (holding, when plaintiff was not resisting arrest “it
was not an unreasonable use of force to push [plaintiff] to
the ground and place a knee on his back” because such
force was part of the necessary force inherent in the right

66a

to make an arrest); Kim v. Ritter, 493 F. App’x 787, 789
(7th Cir. 2012) (citations omitted) (noting that it is
reasonable for officers to tackle and put a knee on an
arrestee’s back if the person physically resists or flees);
Sullivan v. City ofPembroke Pines, 161 F. App’x 906, 910
(llth Cir. 2006) (holding officer did not use unreasonable
force when he grabbed the plaintiffs arm, “pulled her
arms behind her back, forced her to the ground, placed
his knee on her back, and handcuffed her” and did not
keep the plaintiff on the ground for any appreciable
period of time, when plaintiffs only alleged crime was
refusing the officer’s commands); Reiner v. Dandurand,
33 F. Supp. 3d 1018, 1030 (N.D. Ind. 2014) (finding that
officer did not use unreasonable force in putting his knee
on the back of a physically compliant arrestee’s neck,
shoving arrestee’s face onto the pavement causing
scrapes, when arrestee did pull over immediately, exited
the car when he did eventually pull over, and arrestee
was yelling).
At the time of plaintiffs arrest, clearly established
law prohibited the use of gratuitous knee strikes against
an arrestee if the arrestee was not resisting and was fully
subdued. See Krout v. Goemmer, 583 F.3d 557, 566 (8th
Cir. 2009) (holding that officers were not entitled to
qualified immunity because it was clearly established
that the use of four to six knee strikes to the lower back,
five or six punches to the mid-back, and three or four
instances of an officer dropping onto the arrestee’s back
from a standing position was objectively unreasonable
given that the arrestee was already handcuffed and no
longer resisting); Gill v. Maciejewski, 546 F.3d 557, 562
(8th Cir. 2008) (upholding jury verdict in excessive force
case when an officer smashed his knee into an arrestee’s
head while the arrestee was complying with officers, not
resisting, and was pinned to the ground). As this Court
recently noted, however, Krout and Gill do not clearly
proscribe an officer kneeling on an arrestee when the

67a

arrestee is not restrained or subdued, and the officer
could reasonably perceive that the arrestee was still
actively resisting arrest. McManemy, 2018 WL 5269819,
at *9-10; see also Holmes v. Hale, 701 F. App’x 751, 755
(llth Cir. 2017) (rejecting arrestee’s argument that
officer placing his knee on arrestee’s back was excessive
force when officer found arrestee hiding in a closet at the
time of arrest; the court noted that despite the arrestee’s
argument that he was not actually armed, a reasonable
officer at the scene could have believed that the arrestee
was lying in wait with a weapon).
Schaefer’s use of his knee on plaintiffs back and
shoulder during his arrest did not violate plaintiffs
clearly established rights. Regarding the initial use of the
knee on plaintiffs back, the clearly established law at the
time of plaintiffs arrest indicated that an officer putting
his knee on an arrestee’s back was part of the ordinary
force involved in making any arrest, particularly when,
as here, the officer could reasonably have perceived that
the arrestee was resisting. See White, 865 F.3d at 1080;
Holmes, 701 F. App’x at 755; Kim, 493 F. App’x at 789;
Reiner, 33 F. Supp. 3d at 1030.
With respect to the two instances of Schaefer
pressing his knee into plaintiffs back, plaintiff concedes
that Schaefer’s conduct was in response to plaintiffs
attempts to lift his upper body (Doc. 15, at f 101), which
Schaefer could reasonably have interpreted as plaintiff
resisting arrest, and the conduct occurred before plaintiff
was handcuffed. Even if Schaefer’s use of his knee
constituted unreasonable force, Krout and Gill would not
have clearly established plaintiffs right to be free from
the use of a knee because those cases addressed knee
strikes when the plaintiffs were already completely
subdued and compliant. Schaefer is entitled to qualified
immunity for the use of his knee during plaintiffs arrest
because it was not apparent from then-existing law that

68a

Schaefer’s conduct was unlawful.
As to plaintiffs allegation that Schaefer continued to
kneel on his shoulder after Tiedt handcuffed plaintiff, the
Court cannot find that Schaefer’s actions went beyond
the hazy border between excessive and acceptable force.
Schaefer only continued to use his knee on plaintiff s back
for approximately eighteen seconds after Tiedt
handcuffed plaintiff, during which time Schaefer was the
only officer restraining plaintiff while the other officers
patted plaintiff down, removed items from plaintiffs
person, and attempted to keep plaintiffs dog out of the
way. The law at the time of plaintiffs arrest made clear
that the use of a knee was permitted as part of an
ordinary arrest, particularly when the officer did not keep
the arrestee on the ground for “any appreciable period of
time,” Sullivan, 161 F. App’x at 910. Given that Schaefer
could reasonably perceive that plaintiff had resisted
arrest and that defendants had not yet patted plaintiff
down, the Court cannot find that Schaefer keeping his
knee on plaintiffs back for a brief period during the patdown search crossed the hazy border between excessive
and acceptable force. Thus, Schaefer’s use of his knee on
plaintiff s back and shoulder during the pat- down search
did not violate plaintiffs clearly established rights and
Schaefer is entitled to qualified immunity.
Finally, Schaefer is entitled to qualified immunity as
to plaintiffs claim that Schaefer used excessive force in
grabbing plaintiffs arm and pushing plaintiff against a
patrol car while Schaefer was searching plaintiffs person
for the keys to plaintiffs Jeep. (Doc. 15, at ^ 114). It is
clearly established that the use of gratuitous force
against a suspect who is handcuffed, not resisting, and
fully subdued is unconstitutional. White, 865 F.3d 1064,
1080 (8th Cir. 2017) (citing Krout, 583 F.3d, at 566). That
does not mean, however, that every use of force against a
handcuffed suspect is per se unreasonable. See

69a

Mclnerney v. City & Cty. of San Francisco, 466 F. App’x
571, 573 (9th Cir. 2012) (holding that officer grabbing
handcuffed arrestee and “strongarm[ing]” him on the way
to police van was patently reasonable in light of arrestee’s
prior noncompliance); Post v. City of Fort Lauderdale, 1
F.3d 1552, 1559 (llth Cir. 1993), modified, 14 F.3d
583 (llth Cir. 1994) (holding that officer pushing
handcuffed suspect into a wall “was not plainly
unlawful”); Jankins v. City of Pasadena, No. CV 18-520DMG (GJSX), 2019 WL 994959, at *8 (C.D. Cal. Feb. 15,
2019) (holding that officers did not use excessive force in
pushing handcuffed plaintiffs face onto the trunk of the
patrol vehicle and attempting to shove plaintiff into the
back of the patrol vehicle). Pushing an arrestee against a
vehicle with enough force to bruise the arrestee’s
forehead to pat-down and handcuff the suspect
constitutes de minimis force, which is insufficient to
support an excessive force claim under the Fourth
Amendment. Nolin, 207 F.3d at 1258.
A reasonable officer in Schaefer’s position would not
have known that grabbing plaintiffs arm with enough
force to leave a bruise and pushing plaintiff against
Tiedt’s patrol car violated plaintiffs Fourth Amendment
rights. Although gratuitous violence against handcuffed
suspects is clearly proscribed, Schaefer’s actions do not
approach the level of violence in cases like Krout or Gill.
By contrast, it is clearly established that the use of some
force against a handcuffed suspect is permissible to
perform basic functions related to an arrest, such as
placing the suspect in the vehicle, particularly when the
suspect has previously failed to comply with the officers.
At the time that Schaefer grabbed plaintiffs arm,
plaintiff had pulled away from the officers to close his car
door, and plaintiff had slipped his handcuffs from behind
his back to the front of the body. Faced with these
circumstances, the law was not so clear as to lead every
reasonable officer to believe that tightly gripping

70a

plaintiffs right arm and pushing him against Tiedt’s
patrol car to locate plaintiffs keys was an unreasonable
use of force. Schaefer is therefore entitled to qualified
immunity.
Because Schaefer is entitled to qualified immunity
on each allegation in plaintiffs excessive force claim, the
state defendants’ motion for summary judgment is
granted as to count two against Schaefer.
iv.

Dickinson

Plaintiffs only allegation against Dickinson is that
Dickinson struck plaintiff in the right leg with an object
which plaintiff believes to have been Dickinson’s
flashlight, three times during his arrest. (Docs. 15, at U
100; 83*2, at 8). There is no dispute that Dickinson’s
alleged strikes to plaintiffs leg did not leave any marks,
and plaintiff never sought medical treatment. At the time
that Dickinson struck plaintiff in the leg, plaintiffs right
arm was underneath his body, and plaintiff was
attempting to lift his upper body, which Dickinson could
reasonably have interpreted as plaintiff actively resisting
Tiedt’s attempts to handcuff plaintiff. Given the
circumstances facing Dickinson, and the state of the law
at the time of plaintiffs arrest, plaintiff cannot show that
it was beyond debate that Dickinson’s conduct violated
his Fourth Amendment rights.
Plaintiff has not cited to any controlling case law
clearly establishing that an officer cannot use a flashlight
or baton to strike the legs of a suspect whom the officer
reasonably perceives to be actively resisting arrest.
Moreover, persuasive authority indicates that strikes
with a flashlight or baton to the lower body to subdue a
suspect are a reasonable use of force. In Stanfield’ one of
the officers struck the plaintiff twice in the leg with his
flashlight while two other officers were attempting to
handcuff plaintiff. 727 F. App’x 841, 850 (6th Cir. 2018).
The court noted that the officers could reasonably have

71a

perceived the plaintiffs actions as resistance. Id. at 848.
The court held that the officer who struck the plaintiff
with the flashlight was entitled to qualified immunity
because there was no clearly established law prohibiting
the use of a flashlight to strike the legs of a resisting
suspect who was not already subdued or handcuffed. Id.
at 850-51.
The court’s decision in Kellough v. Bertrand, 22 F.
Supp. 2d 602 (S.D. Tex. 1998), is also instructive as to the
established law governing the use of baton or flashlight
strikes against an arrestee. In Kellough, the plaintiff was
mistakenly identified as a suspect in an armed robbery.
Id. at 606. The officers ordered the plaintiff out of his
vehicle and told him to lie face-down on the ground. Id.
The plaintiff did not comply and instead asked the
officers what he had done. Id. One of the officers
employed a leg sweep and took the plaintiff to the ground.
Id. Before the officers handcuffed the plaintiff, one of the
officers struck plaintiff in the arm with his flashlight. Id.
The court held that because the plaintiff had not followed
the officers’ instructions to get on the ground, and
because the strike occurred before plaintiff was
handcuffed, the court could not conclude that the
flashlight strike was so excessive as to overcome the
officer’s qualified immunity. Id. at 608.
The courts’ decisions in Stanfield and Kellough are in
line with numerous other cases that clarify that the use
of a baton or flashlight to strike an arrestee, particularly
in the lower body, is not excessive if done before the
arrestee is subdued and to gain control of the arrestee.
See Williams v. Schismenos, 258 F. Supp. 3d 842, 856—57
(N.D. Ohio 2017), affd, 738 F. App’x 342 (6th Cir. 2018)
(holding that officer used reasonable force when “the
hand and baton strikes were in response to [arrestee’s]
defiant actions, and were accompanied by instructions to
stop resisting and ‘go to the ground,”’and noting “the

72a

strikes were applied to the lower region of [arrestee’s]
body, and were not so forceful as to seriously injur[e]
[arrestee] as they appeared to have little effect on him”);
Hargraves v. D.C., 134 F. Supp. 3d 68, 87 (D.D.C. 2015)
(holding that officer’s use of two baton strikes to
arrestee’s leg was reasonable use of force to get arrestee to
the ground when arrestee appeared to be actively
resisting officers and arrestee refused officers’ commands
to get on the ground); Westfahl v. D.C., 75 F. Supp. 3d
365, 373 (D.D.C. 2014) (holding that it was reasonable for
officer to strike arrestee with his baton after another
officer took the arrestee to the ground when the strikes
occurred before arrestee was clearly restrained and the
strikes did not cause any serious injury); Padula v.
Leimbach, 740 F. Supp. 2d 980, 992 (N.D. Ind. 2010),
affd, 656 F.3d 595 (7th Cir. 2011) (holding officer used
reasonable force when the officer struck arrestee in the
leg three times with a baton to subdue arrestee’s
resistance).
Assuming for purposes of summary judgment that
Dickinson in fact struck plaintiff in the right leg three
times with his flashlight (or other similar object),
Dickinson’s actions did not violate any clearly established
law. Dickinson could reasonably have interpreted
plaintiff s actions of stepping away from Schaefer,
resisting Schaefer’s efforts to take plaintiff to the ground,
ignoring the officers’ orders to get on the ground, and
attempting to lift his upper body to free his right hand as
resistance. In light of plaintiffs perceived resistance, and
the case law set forth above, not every reasonable official
would have understood that it was unreasonable to strike
plaintiff in the right thigh three times to get control of
plaintiff, particularly when all of the strikes occurred
before plaintiff was handcuffed. Thus, Dickinson did not
violate plaintiffs clearly established rights, he is entitled
to qualified immunity, and the state defendants’ motion
for summary judgment is granted as to count two against

73a

$

Dickinson.
v.

CONCLUSION

For the reasons stated above, defendants Dan
Schaefer and James E. Dickinson’s Motion for Summary
Judgment (Doc. 74) is granted, and plaintiffs claims
against Dan Schaefer and James E. Dickinson are
dismissed with prejudice. The clerk’s office is directed to
enter judgment in favor of Dan Schaefer and James E.
Dickinson on plaintiffs claims. Defendants Matthew
Tiedt and Kyle Shores’ Second Motion for Summary
Judgment (Doc. 76) is granted as to plaintiffs Second
Cause of Action for Excessive Force Arrest, and as to
plaintiffs Third Cause of Action to the extent it alleges
that the initial traffic stop and plaintiffs subsequent
arrest violated plaintiffs Fourth Amendment rights. The
Court’s ruling on Defendants Matthew Tiedt and Kyle
Shores’ Second Motion for Summary Judgment does not
impact plaintiffs Third Cause of Action to the extent
plaintiff alleges the decision to tow and inventory search
plaintiffs Jeep violated Plaintiffs Fourth Amendment
rights. The Court hereby grants the parties leave until
April 3, 2019, to file supplemental motions in limine
addressing only new evidentiary issues raised by this
Order.
IT IS SO ORDERED this 28th day of March, 2019.

—

C.J. Williams
United States
District Judge
Northern District
of Iowa

74a

(•

United States Court of Appeals
For the Eighth Circuit
No. 16-4022

Billy Duane Card Fleshner
Plaintiff - Appellant
v.
Matthew Tiedt; Kyle Shores; Dan Schaefer! James E.
Dickinson
Defendants -Appellees
Bremer County, Iowa! Marks Auto Repair and Wrecker
Service! Dan Pickett; Connie Sents! Kenneth Wayne
Wiley
Defendants

Appeal from United States
District Court for the Northern
District of Iowa - Waterloo

Submitted- December 7, 2017
Filed- March
16, 2018
[Unpublished]

Before SHEPHERD, MURPHY, and KELLY, Circuit Judges.
PER CURIAM

75a

In this pro se 42 U.S.C. § 1983 action, Billy Fleshner
appeals after the district court dismissed several claims
against

Bremer

County

Sheriffs

Department

Officers

Matthew Tiedt and Kyle Shores, and Iowa State Patrol
Troopers Dan Schaefer and James Dickinson, for failure to
state a claim, and then adversely granted summary judgment
on the remaining excessive force claim against those
defendants. After carefully reviewing the record and the
parties’ arguments on appeal, we reverse in part, affirm in
part, and remand the case for further proceedings. See
Montin v. Moore. 846 F.3d 289, 293 (8th Cir. 2017) (grant of
Fed. R. Civ. P. 12(c) motion is reviewed de novo); Beaulieu v.
Ludeman. 690 F.3d 1017, 1024 (8th Cir. 2012) (grant of
summary judgment is reviewed de novo, viewing record in
light most favorable to nonmovant).1
To begin, we conclude that the dismissal of Fleshner’s
claim requesting a grand jury was appropriate. See In re
Application of Wood. 833 F.2d 113, 116 (8th Cir. 1987)
(individual cannot bring accusations before grand jury
unless invited to do so by prosecutor or grand jury, or unless
prosecutor fails to act).
lFleshner also named several other defendants who were
ultimately dismissed, and additionally brought a conspiracy claim and a
state-law claim that were dismissed, but he has not challenged those
dismissals on appeal. See Hess v. Abies, 714 F.3d 1048, 1051 n.2 (8th
Cir. 2013) (claim was abandoned where appellant did not brief court on
why dismissal was improper)

76a

&

As to Fleshner’s search and seizure claims, accepting his
allegations as true, we conclude that Fleshner adequately
stated a claim that he was subjected to an objectively
unreasonable traffic stop, which was not supported by
probable cause or reasonable suspicion. See United States v.
Houston. 548 F.3d 1151, 1153 (8th Cir. 2008) (traffic stop is
seizure within meaning of Fourth Amendment and thus
must be supported by reasonable suspicion or probable
cause); McCoy v. City of Monticello, 342 F.3d 842, 847-48
(8th Cir. 2003) (to establish violation of Fourth Amendment
in § 1983 action, claimant must demonstrate traffic stop was
objectively unreasonable under the totality of the
circumstances); see also Kelly v. City of Omaha. 813 F.3d
1070, 1075 (8th Cir. 2016) (in reviewing dismissal for failure
to state claim, this court takes all facts alleged in complaint
as true and draws all reasonable inferences in favor of
plaintiff); Whitson v. Stone Ctv. Jail. 602 F.3d 920, 922 n.l
(8th Cir. 2010) (pro se complaint must be liberally construed
and pro se litigants held to lesser pleading standard);
Westcott v. City of Omaha, 901 F.2d 1486, 1488 (8th Cir.
1990) (Rule 12(c) motions are reviewed under same standard
that governs Fed. R. Civ. P. 12(b)(6) motions).
We
also conclude--again accepting Fleshner’s
allegations as true--that he adequately alleged that the
decisions to tow and inventory-search his vehicle were not
made in furtherance of a community caretaking function,

77a

*

pursuant to standard Sheriffs department practices. See
United States v. Sims. 424 F.3d 691, 693 (8th Cir. 2005)
(discussing vehicle impoundments and inventory searches as
community caretaking functions); see also United States v.
Arrocha. 713 F.3d 1159, 1162-63 (8th Cir. 2013) (discussing
inventory-search doctrine); United States v. Marshall. 986
F.2d 1171, 1173-76 (8th Cir. 1993) (same).
Finally, we conclude that there remains a genuine issue
of material fact as to whether the force used in arresting
Fleshner was objectively reasonable. See Graham v. Connor.
490 U.S. 386, 396-97 (1989) (force applied in effectuating
arrest must be objectively reasonable; reasonableness turns
on circumstances, including severity of crime at issue,
whether suspect posed immediate threat to safety of officers
or others, and whether he was actively resisting arrest or
attempting to flee).
Accordingly, we reverse the dismissal of Fleshner’s
search and seizure claims, we reverse the adverse grant of
summary judgment as to his excessive-force claim, we affirm
the dismissal of his grand-jury claim, and we remand the
case to the district court for further proceedings.

78a

*

United States Court of Appeals
For the Eighth Circuit

No. 19-2091
Billy Duane Card Fleshner
Plain tiff - Appellant
v.
Kenneth Wayne Wiley
Defendant
Matthew Tiedt; Kyle Shores
Defendants -Appellees
Connie Sents! Dan Pickett
Defendants, Dan Schaefer! James E.Dickinson
Defendants - Appellees
Marks Auto Repair and Wrecker Service! Bremer County,
Iowa
Defendants
Appeal from United States District Court for the Northern
District of Iowa - Waterloo
Submitted^ April 3, 2020
Filed: April 10, 2020 [Unpublished]

Before COLLOTON, WOLLMAN, and KELLY, Circuit Judges.

79a

PER CURIAM.
Billy Fleshner appeals the district court’s ^ adverse
grant of summary judgment and the adverse jury verdict in
his 42 U.S.C. § 1983 action. After de novo review, construing
the record in the light most favorable to Fleshner, and
drawing all reasonable inferences in his favor, we conclude
that summary judgment was proper for the reasons stated
by the district court. See Odom v. Kaizer, 864 F.3d 920, 921
(8th Cir. 2017) (reviewing grant of summary judgment de
novo! summary judgment is proper when there is no genuine
issue of material fact and party is entitled to judgment as a
matter of law; evidence is viewed and all reasonable
inferences are drawn in nonmoving party’s favor). We
further conclude that Fleshner has waived review of the jury
verdict by not providing any meaningful argument on
appeal, see Waters v. Madson, 921 F.3d 725, 744 (8th Cir.
2019) (issues not meaningfully argued on appeal are waived),
and by failing to provide a trial transcript, see Fed. R. App.
P. 10(b)(2) (if appellant intends to urge on appeal that
finding is unsupported by or contrary to evidence, he must
include in record a transcript of all evidence relevant to that
finding). The judgment is affirmed. See 8th Cir. R. 47B.

■^The Honorable C.J. Williams, United States District Judge for the
Northern District of Iowa.

80a

